<html>
<title> - THE PROTECTING THE RIGHT TO ORGANIZE ACT: DETERRING UNFAIR LABOR PRACTICES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                        THE PROTECTING THE RIGHT
                       TO ORGANIZE ACT: DETERRING
                         UNFAIR LABOR PRACTICES

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 8, 2019

                               __________

                           Serial No. 116-21

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 36-596 PDF             WASHINGTON : 2019
              
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR, AND PENSIONS

                FREDERICA S. WILSON, Florida, Chairwoman


Donald Norcross, New Jersey          Tim Walberg, Michigan
Joseph D. Morelle, New York            Ranking Member
Susan Wild, Pennsylvania             David P. Roe, Tennessee
Lucy McBath, Georgia                 Rick W. Allen, Georgia
Lauren Underwood, Illinois           Francis Rooney, Florida
Haley M. Stevens, Michigan           Jim Banks, Indiana
Joe Courtney, Connecticut            Russ Fulcher, Idaho
Marcia L. Fudge, Ohio                Van Taylor, Texas
Josh Harder, California              Steve C. Watkins, Jr., Kansas
Donna E. Shalala, Florida            Ron Wright, Texas
Andy Levin, Michigan                 Dan Meuser, Pennsylvania
Lori Trahan, Massachusetts           Dusty Johnson, South Dakota
(VACANT)
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 8, 2019......................................     1

Statement of Members:
    Walberg, Hon. Tim, Ranking Member, Subcommittee on Health, 
      Employment, Labor, and Pensions............................     4
        Prepared statement of....................................     6
    Wilson, Hon. Frederica S., Chairwoman, Subcommittee on 
      Health, Employment, Labor, and Pensions....................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Trumka, Mr. Richard L., J.D., President, AFL-CIO.............     8
        Prepared statement of....................................    10
    Staus, Mr. Jim, Pittsburgh, PA...............................    16
        Prepared statement of....................................    18
    Miscimarra, Mr. Philip A., J.D., Partner, Morgan, Lewis and 
      Bockius LLP................................................    21
        Prepared statement of....................................    23
    Pearce, Mr. Mark G., J.D. Executive Director and 
      Distinguished Lecturer, Georgetown Law Center's Workers' 
      Rights Institute...........................................    36
        Prepared statement of....................................    38

Additional Submissions:
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina:
        Article: Big Labor's Big Shrink..........................    79
    Hayes, Hon. Jahana, a Representative in Congress from the 
      State of Connecticut:
        Letter dated February 15, 2018, from the United States 
          Government National Labor Relations Board..............    81
    Roe, Hon. David P., a Representative in Congress from the 
      State of Tennessee:
        Letter dated April 12, 2019, from Congress of the United 
          States.................................................    88
    Mr. Trumka:
        Letter dated May 22, 2019, from AFL-CIO America's Unions.    97
    Mr. Walberg:
        Letter dated May 6, 2019 from National Retail Federation 
          (NRF)..................................................   116
        Letter dated May 7, 2019 from the Coalition for Workforce 
          Innovation (CWI).......................................   106
        Letter dated May 8, 2019 from Associated Builders and 
          Contractors (ABC)......................................   102
        Letter dated May 8, 2019 from the Coalition for a 
          Democratic Workplace...................................   104
        Letter dated May 8, 2019 from International Franchise 
          Association (IFA)......................................   107
        Letter dated May 8, 2019 from Independent Electrical 
          Contractors (IEC)......................................   109
        Letter dated May 8, 2019 from Motor and Equipment 
          Manufacturers Association (MEMA).......................   111
        Letter dated May 8, 2019 from National Association of 
          Home Builders (NAHB)...................................   112
        Letter dated May 8, 2019 from National Restaurant 
          Association............................................   114
    Wild, Hon. Susan, a Representative in Congress from the State 
      of Pennsylvania:
        Prepared statement from International Brotherhood of 
          Teamsters..............................................   117
    Chairwoman Wilson:
        Letter dated May 8, 2019 from SEIU.......................   122
        Letter dated April 29, 2019 from the AFL-CIO.............   124
        Letter dated May 8, 2019 from the Bluegreen Alliance.....   126
        Prepared statement from International Union of Painters 
          and Allied Trades (IUPAT)..............................   128
        Letter dated May 6, 2019 from the United Steelworkers 
          (USW)..................................................   132
    Questions submitted for the record by:
        Fulcher, Hon. Russ, a Representative in Congress from the 
          State of Idaho.........................................   135
        Bonamici, Hon. Suzanne, a Representative in Congress from 
          the State of Oregon....................................   137
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia 



        Stevens, Hon. Haley M., a Representative in Congress from 
          the State of Michigan 




    Responses to questions submitted for the record by:
        Mr. Miscimarra...........................................   143
        Mr. Pearce...............................................   146
        Mr. Staus................................................   149
        Mr. Trumka...............................................   150


                  THE PROTECTING THE RIGHT TO ORGANIZE



                 ACT: DETERRING UNFAIR LABOR PRACTICES

                              ----------                              


                         Wednesday, May 8, 2019

                       House of Representatives,

                   Committee on Education and Labor,

        Subcommittee on Health, Education, Labor, and Pensions,

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:18 p.m., in 
room 2175, Rayburn House Office Building. Hon. Frederica S. 
Wilson [chairwoman of the subcommittee] presiding.
    Present: Representatives Wilson, Norcross, Morelle, Wild, 
McBath, Underwood, Stevens, Courtney, Harder, Shalala, Levin, 
Trahan, Scott, Walberg, Roe, Allen, Banks, Fulcher, Taylor, 
Watkins, Wright, Meuser, and Johnson.
    Also present: Representatives Foxx, Hayes, and Jayapal.
    Staff present: Tylease Alli, Chief Clerk; Nekea Brown, 
Deputy Clerk; Ilana Brunner, General Counsel Health and Labor; 
David Dailey, Senior Counsel; Kyle deCant, Labor Policy 
Counsel; Mishawn Freeman, Staff Assistant; Christian Haines, 
General Counsel Education; Eli Hovland, Staff Assistant; 
Stephanie Lalle, Deputy Communications Director; Kevin 
McDermott, Senior Labor Policy Advisor; Max Moore, Office Aid; 
Merrick Nelson, Digital Manager; Banyon Vassar, Deputy Director 
of Information Technology; Katelyn Walker, Counsel; Courtney 
Butcher, Minority Director of Coalitions and Members Services; 
Akash Chougule, Minority Professional Staff Member; Rob Green, 
Minority Director of Workforce Policy; John Martin, Minority 
Workforce Policy Counsel; Hannah Matesic, Minority Director of 
Operations; Kelley McNabb, Minority Communications Director; 
Ben Ridder, Minority Legislative Assistant; Meredith Schellin, 
Minority Deputy Press Secretary and Digital Advisor; and 
Heather Wadyka, Minority Operations Assistant.
    Chairwoman WILSON. The Subcommittee on Health, Employment, 
Labor, and Pensions will come to order. Welcome, everyone.
    I note that a quorum is present. I ask unanimous consent 
that Representatives Suzanne Bonamici of Oregon, Pramila 
Jayapal of Washington, Jahana Hayes of Connecticut, Bradley 
Byrne of Alabama, and Ben Cline of Virginia be permitted to 
participate in today's hearing with the understanding that 
their questions will come after all members of the HELP 
Subcommittee on both sides of the aisle who are present have 
had an opportunity to question the witnesses. But we welcome 
our colleagues to this hearing.
    Without objection, so ordered.
    The subcommittee is meeting today in a legislative hearing 
to receive on Protecting the Right to Organize Act: Deterring 
Unfair Labor Practices. Pursuant to committee rule 7c, opening 
statements are limited to the chair and the ranking member. 
This allows us to hear from our witnesses sooner and provides 
all members with adequate time to ask questions.
    I recognize myself now for the purpose of making an opening 
statement.
    Today we are holding the first legislative hearing on H.R. 
2474, the Protecting the Right to Organize, or the PRO Act, a 
comprehensive proposal to strengthen workers' rights to 
organize and to bargain for higher wages, better benefits, and 
safer working conditions. This hearing will focus specifically 
on the provisions of the bill that prevent employers from 
violating workers' rights through coercion, retaliation, and 
delay.
    For generations, labor unions fueled our Nation's 
prosperity, protected the health and safety of American workers 
and supported a strong, strong, strong middle class. When union 
membership was at its peak of around 30 percent between the end 
of World War II and 1973, wage growth and worker productivity 
grew at nearly identical rates. But over the next 4 decades, as 
union membership declined, the link between rising productivity 
and rising pay was eroded.
    Between 1973 and 2017, worker productivity increased by 73 
percent, but wages only grew by 12 percent, adjusting for 
inflation. This shift has undermined the financial security of 
workers and their families and contributed to the severe income 
inequality we face today.
    Yet, despite the proven benefits of strong unions, just one 
in ten workers is currently a union member. That is a level not 
seen since the 1930's, just before the passage of the National 
Labor Relations Act. But American workers have not given up on 
unions--far from it. Support for unions is at a 4 decade high. 
According to a poll of workers across the country by 
researchers at MIT, 48 percent of non-union workers said they 
would vote to join a union.
    One major reason for the gap between worker enthusiasm and 
low union density is that toothless labor laws, more intense 
and more sophisticated employer opposition to unions, and 
relentless political attacks have dismantled workers' right to 
organize.
    The current system allows employers to unlawfully 
discourage, delay, or prohibit union organizing with near 
impunity. Even when our labor laws work as intended, employees 
are often left with hollow victories after months or years of 
appeals.
    Today we will evaluate how provisions in the PRO Act would 
deter employers from violating workers' rights to form unions. 
The PRO Act would do this in five ways:
    First, it establishes meaningful penalties for companies 
that violate their employees' rights. Incredibly, there are no 
civil penalties that can deter employers from violating 
workers' rights to organize under current law, no matter how 
repeated or willful the conduct.
    The PRO Act would authorize civil penalties for employers 
that retaliate against workers who seek to join a union.
    Second, the PRO Act would streamline procedures to 
guarantee swift remedies. If a worker is unlawfully fired for 
organizing, they may have to wait years before receiving 
recourse. And justice delayed is justice denied.
    The PRO Act would guarantee temporary reinstatement for 
workers while their cases are pending and would make National 
Labor Relations Board orders self-enforcing, like those of any 
other Federal agency.
    Third, the PRO Act would ban employers from requiring 
employees to attend captive audience meetings.
    Fourth, the PRO Act would establish a mediation and 
arbitration process to encourage employers and unions to reach 
a first collective bargaining agreement. Under current law, 
even if a union wins an election, employers can stall at the 
bargaining table with minimal consequences. The PRO Act would 
effectuate the NLRA's original purpose of promoting collective 
bargaining.
    And, finally, the PRO Act fosters transparency so employees 
know their rights under the law. Other Federal labor and 
employment laws require employers to post notices of employees' 
rights, like Title VII of the Civil Rights Act, the Family and 
Medical Leave Act, and OSHA. The PRO Act will similarly 
guarantee that employers notify employees of their rights under 
the law.
    This legislation is all about restoring workers' rights to 
organize and improving the quality of life for workers and 
their families in communities across America.
    I want to thank our witnesses for giving us this time and 
expertise this afternoon, and I now yield to the ranking 
member, Mr. Walberg, my friend, for the purpose of an opening 
statement.
    Mr. Walberg, the esteemed Mr. Walberg.
    [The statement of Chairwoman Wilson follows:]

      Prepared Statement of Hon. Frederica S. Wilson, Chairwoman, 
        Subcommittee on Health, Employment, Labor, and Pensions

    Today, we are holding the first legislative hearing on H.R. 2474, 
the Protecting the Right to Organize, or the PRO Act, a comprehensive 
proposal to strengthen workers' right to organize and bargain for 
higher wages, better benefits, and safer working conditions. This 
hearing will focus specifically on the provisions of the bill that 
deter employers from violating workers' rights through coercion, 
retaliation, and delay.
    For generations, labor unions fueled our Nation's prosperity, 
protected the health and safety of American workers, and supported a 
strong middle class. When union membership was at its peak of around 30 
percent between the end of World War II and 1973, wage growth and 
worker productivity grew at nearly identical rates.
    But over the next four decades as union membership declined, the 
link between rising productivity and rising pay was eroded. Between 
1973 and 2017, worker productivity increased by 73 percent, but wages 
only grew by 12 percent, adjusting for inflation. This shift has 
undermined the financial security of workers and their families and 
contributed to the severe income inequality we face today.
    Yet despite the proven benefits of strong unions--just one in 10 
workers is currently a union member. That's a level not seen since the 
1930's, just before the passage of the National Labor Relations Act.
    But American workers have not given up on unions. Far from it. 
Support for unions is at a four-decade high. According to a poll of 
workers across the country by researchers at MIT, 48 percent of non-
union workers said they would vote to join a union.
    One major reason for the gap between worker enthusiasm and low 
union density is that toothless labor laws, more intense and more 
sophisticated employer opposition to unions, and relentless political 
attacks have dismantled workers' right to organize.
    The current system allows employers to unlawfully discourage, 
delay, or prohibit union organizing with near impunity. Even when our 
labor laws work as intended, employees are often left with hollow 
victories after months or years of appeals.
    Today, we will evaluate how provisions in the PRO Act would deter 
employers from violating workers' rights to form unions.
    The PRO Act would do this in five ways:
    First, it establishes meaningful penalties for companies that 
violate their employees' rights. Incredibly, there are no civil 
penalties that can deter employers from violating workers' rights to 
organize under current law--no matter how repeated or willful the 
conduct. The PRO Act would authorize civil penalties for employers that 
retaliate against workers who seek to join a union.
    Second, the PRO Act would streamline procedures to guarantee swift 
remedies. If a worker is unlawfully fired for organizing, they may have 
to wait years before receiving recourse, and justice delayed is justice 
denied. The PRO Act would guarantee temporary reinstatement for workers 
while their cases are pending, and would make National Labor Relations 
Board orders self-enforcing, like those of any other Federal agency.
    Third, the PRO Act would ban employers from requiring employees to 
attend captive audience meetings.
    Fourth, the PRO Act would establish a mediation and arbitration 
process to encourage employers and unions to reach a first collective 
bargaining agreement. Under current law, even if a union wins an 
election, employers can stall at the bargaining table with minimal 
consequences. The PRO Act would effectuate the NLRA's original purpose 
of promoting collective bargaining.
    And finally, the PRO Act fosters transparency, so employees know 
their rights under the law. Other Federal labor and employment laws 
require employers to post notices of employees' rights--like Title VII 
of the Civil Rights Act, the Family and Medical Leave Act, and OSHA. 
The PRO Act will similarly guarantee that employers notify employees of 
their rights under the law.
    This legislation is about restoring workers' right to organize and 
improving the quality of life for workers and their families in 
communities across America.
                                 ______
                                 
    Mr. WALBERG. Oh, keep it up.
    Madam Chairwoman, thank you. I appreciate serving with you 
on this committee. And we disagree on some things, we agree on 
plenty of things. And I would say today as well, that our 
esteemed Chair of the full Education and Labor Committee, as 
well as yourself and I, certainly agree on some things about 
the labor movement, the labor union, and the accomplishments 
that they have had. That has been a benefit to all of us who 
have been in the workplace, at whatever area of the workplace 
it has been.
    Organized labor has a long history in America, in the work 
force of America, in its diverse looks and places and the work 
force. The early advocacy for fairness and decent treatment 
left an important legacy--and I say that sincerely--save lives, 
that have impacted benefits and futures for Americans, and 
giving an example, in many cases, to the rest of the world. But 
that legacy also is, as is continued unfortunately, to the 
modern labor movement, has appeared to have been abandoned or 
gone beyond need in many cases.
    And that is what we are discussing today, and it is a vital 
discussion.
    I grew up in a union household on the south side of 
Chicago. My father was a machinist and, in fact, tool and die 
maker and a union organizer. I remember seeing the buttons on 
his apron and on his cap of the Steelworkers Union. I saw that 
in my household and upon graduating from high school I went to 
work at US Steel South Works on the south side of Chicago, No. 
2, electric furnace, as a laborer, as a furnace worker, a 
ladler repairman, as a mold platform operator, third helper on 
the furnace, and as a hooker. And if you are a steel mill 
operator you will know what a hooker is.
    But that was my life. And I can tell you that there were 
parts of those jobs that I performed that were safer, benefits 
were better, because of early work by my father and other union 
workers.
    But there are other things about that as well. The lessons 
I learned from my father and my own experience as a union 
worker helped shape my understanding of labor unions, both the 
good and the bad. Americans have the right to organize. I will 
say that again--Americans have the right to organize--and to 
join a union if they choose to do so. The United States law has 
protected this freedom for over 80 years.
    Outdated U.S. labor laws are in need of significant 
reforms. It is true. But those reforms should put workers, not 
union leaders, first. With all due respect, the sweeping 
legislation we are here to discuss today doesn't benefit 
workers. H.R. 2474 reads like a sweeping special interest wish 
list. Contrary to the statements of the bill's sponsors, this 
bill fails to promote the wellbeing or success of American 
workers. Instead, the legislation grants unprecedented power to 
special interests at the expense of workers and employers, and 
it takes two.
    Among its many radical provisions, the bill requires 
employers to turn over workers' personal information, including 
their home addresses, cell phone and landline numbers, personal 
email addresses, and more. My workers aren't asking for that or 
wanting that, without workers ever having a say in the matter. 
H.R. 2474 will decimate workers' rights to privacy in order to 
satisfy union demands.
    The bill also bans right-to-work, or as I call it, employee 
free choice laws, that allow workers to decide for themselves 
whether to join and pay a union, laws that have resulted in 
more jobs and higher incomes for workers. And in an effort to 
make it easier to create unions, the legislation contains a 
back-door card check scheme that Congress deemed too extreme in 
the last time Democrats were in power. The scheme provides that 
in the event that a union loses an election, employers must 
prove they did not interfere in the election's results. A 
completely ludicrous and unworkable standard. If an employer is 
unable to prove they didn't interfere, that union is 
automatically ushered into the work force without ever winning 
a secret ballot election.
    Union membership across the United States is steadily 
declining. They have failed to adapt with the changing economy. 
And the absence of transparency and accountability in their 
activities has left many workers disillusioned and 
dissatisfied. But instead of making necessary changes to better 
serve their members, union leaders appear to be exerting their 
political influence to call for radical labor laws like this 
one, that will allow them to further consolidate power and 
bolster their own agendas.
    Rather than empowering unions at the expense of workers and 
employers, reforms to the National Labor Relations Act, NLRA, 
and the Labor-Management Reporting and Disclosure Act, LMRDA, 
should improve union accountability and transparency.
    The union elections process must be updated to give workers 
expanded voting rights. It is the height of hypocrisy that 
Americans select their representation in Congress by secret 
ballot and congressional Democrats select their own leadership 
by secret ballot, yet they seek to deny that same right to 
Americans selecting their representation in the workplace.
    Today's workers deserve better than what this extreme 
legislation has to offer.
    Ten years on from the Great Recession and the American 
economy is achieving robust, record-breaking growth. Wages are 
rising while unemployment remains near record lows. And the 
number of job openings exceed the number of job seekers 
nationwide by 7 million. Workers have built this reality, 
spurred on by pro-growth policies, like the Republican-led tax 
law and regulatory reform.
    Everyone sitting here on this dais is here because we 
prevailed in a debate over ideas back in our districts. We are 
here because our constituents decided we would be responsible 
enough and responsive enough to serve them. Congress may not be 
the most popular organization in America, but at least there 
are mechanisms in place for voters to change their minds and 
change their representation.
    Those same basic American values and principles should 
apply to everyone, including organized labor. Resistance to 
those basic values and principles deserve a thorough 
examination. And, thankfully, that is what we are here to do 
today.
    And I commit myself to that effort, Madam Chairwoman. And I 
yield back.
    [The statement of Mr. Walberg to follows:]

Prepared Statement of Hon. Tim Walberg, Ranking Member, Subcommittee on 
                Health, Employment, Labor, and Pensions

    Thank you for yielding.
    Organized labor has a long history in the American work force. 
Their early advocacy for fairness and decent treatment left an 
important legacy, one unfortunately that the modern labor movement has 
appeared to have abandoned. I grew up in a union household. My father 
was a machinist and union organizer for part of his career, and upon 
graduating from high school, I went to work at U.S. Steel South Works 
on the south side of Chicago. The lessons I learned from my father and 
my own experience as a union worker helped shaped my understanding of 
labor unions, both the good and the bad. Americans have the right to 
organize and join a union if they choose to do so, and United States 
law has protected this freedom for over 80 years.
    Outdated U.S. labor laws are in need of significant reforms, it's 
true. But those reforms should put workers, not union leaders, first. 
The sweeping legislation we are here to discuss today doesn't benefit 
workers. H.R. 2474 reads like a sweeping special interest wish list. 
Contrary to the Statements of the bill sponsors, this bill fails to 
promote the wellbeing or success of American workers. Instead, the 
legislation grants unprecedented power to special interests at the 
expense of workers and employers.
    Among its many radical provisions, the bill requires employers to 
turn over workers' personal information including their home addresses, 
cellphone and landline numbers, personal email addresses, and more 
without workers ever having a say in the matter. H.R. 2474 will 
decimate workers' right to privacy in order to satisfy union demands.
    The bill also bans right-to-work laws that allow workers to decide 
for themselves whether to join and pay a union--laws that have resulted 
in more jobs and higher incomes for workers. And in an effort to make 
it easier to create unions, the legislation contains a backdoor ``card-
check'' scheme that Congress deemed too extreme the last time Democrats 
were in power. The scheme provides that in the event that a union loses 
an election, employers must prove they did not interfere in the 
election's results a completely ludicrous and unworkable standard. If 
an employer is unable to prove they didn't interfere, that union is 
automatically ushered into the workplace without ever winning a secret 
ballot election.
    Union membership across the United States is steadily declining. 
They have failed to adapt with the changing economy, and the absence of 
transparency and accountability in their activities has left many 
workers disillusioned and dissatisfied. But instead of making necessary 
changes to better serve their members, union leaders appear to be 
exerting their political influence to call for radical labor laws like 
this one, that will allow them to further consolidate power and bolster 
their own agendas.
    Rather than empowering unions at the expense of workers and 
employers, reforms to the National Labor Relations Act (NLRA) and the 
Labor-Management Reporting and Disclosure Act (LMRDA) should improve 
union accountability and transparency. The union election process must 
be updated to give workers expanded voting rights. It is the height of 
hypocrisy that Americans select their representation in Congress by 
secret ballot and congressional Democrats select their own leadership 
by secret ballot, yet they seek to deny that same right to Americans 
selecting their representation in the workplace.
    Today's workers deserve better than what this radical legislation 
has to offer. Ten years on from the Great Recession and the American 
economy is achieving robust, record-breaking growth. Wages are rising 
while unemployment remains near record lows, and the number of job 
openings exceeds the number of job seekers nationwide. Workers have 
built this reality, spurred on by pro-growth policies like the 
Republican-led tax law and regulatory reform.
    Everyone sitting here on this dais is here because we prevailed in 
a debate over ideas back in our districts. We're here because our 
constituents decided we would be responsible enough, and responsive 
enough, to serve them. Congress may not be the most popular 
organization in America, but at least there are mechanisms in place for 
voters to change their minds and change their representation. Those 
same basic American values and principles should apply to everyone, 
including organized labor. Resistance to those basic values and 
principles deserves a thorough examination, and that's what we want to 
do today.
                                 ______
                                 
    Chairwoman WILSON. Thank you, Mr. Walberg.
    Material for the hearing record--I remind my colleagues 
that pursuant to committee practice, materials for submission 
for the hearing record must be submitted to the committee clerk 
within 14 days following the hearing, preferably in Microsoft 
Word format, by 5 p.m. on May 21, 2019, without objection.
    I will now introduce our witnesses.
    Mr. Richard Trumka is the distinguished president of the 
AFL-CIO. He was formerly the president of the United Mine 
Workers of America, and a third generation coal miner. Welcome.
    Mr. Jim Staus is a former employee of the University of 
Pittsburgh Medical Center.
    Mr. Philip Miscimarra is a partner in Morgan Lewis & 
Bockius LLP and former chairman of the National Labor Relations 
Board.
    Mr. Mark Gaston Pearce is the former chairman at the 
National Labor Relations Board and currently the executive 
director and distinguished lecturer at the Workers' Rights 
Institute at Georgetown University Law Center.
    Welcome today. Thank you for being here. We certainly 
appreciate your presence and your time. We look forward to your 
testimony.
    And let me remind the witnesses that we have read your 
written statements and they will appear in full in the hearing 
record. Pursuant to committee rule 7d and committee practice, 
each of you is asked to limit your oral presentation to a 5 
minute summary of your written statement. Let me also remind 
the witnesses that pursuant to Title 18 of the U.S. Code 
Section 1001, it is illegal to knowingly and willfully falsify 
any statement, representation, writing, document, or material 
fact presented to Congress, or otherwise conceal or cover up a 
material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone that is in front of you so that it 
will turn on and the members can hear you. As you begin to 
speak the light in front of you will turn green. After 4 
minutes the light will turn yellow to signal that you have 1 
minute remaining. When the light turns red your 5 minutes have 
expired and we ask that you please wrap it up.
    We will let the entire panel make their presentations 
before we move to member questions. When answering questions, 
witnesses, please remember to once again turn your microphone 
on.
    I will first recognize Mr. Trumka.

    STATEMENT OF RICHARD L. TRUMKA J.D., PRESIDENT, AFL-CIO

    Mr. TRUMKA. Chairman Wilson, Ranking Member Walberg, and 
members of the subcommittee, on behalf of the 12.5 million 
members and 55 unions of the AFL-CIO, thank you for inviting me 
to testify today.
    I want to thank House Education & Labor Committee Chairman 
Bobby Scott and his colleagues for his foresight they have 
demonstrated in crafting this important legislation.
    Gallup recently put the popularity of unions at 62 percent, 
a 15 year high. The Wall Street Journal reported that in 2018 
it was the biggest year for collective action in 3 decades. 
Teachers, from West Virginia to Arizona, Google employees, 
workers in every sector and every region, are embracing the 
transformational power that comes from joining together in 
common cause.
    MIT found that half, half of all non-union workers would 
join a union today if given the chance. That is more than 60 
million Americans. So why haven't we seen a rise in union 
membership commensurate with this surge in approval, 
recognition, and desire? Well, the answer is clear: our 
woefully outdated labor laws no longer serve as an effective 
means for working people to have our voices heard.
    The stated purpose of the National Labor Relations Act is 
to encourage collective bargaining. Yet in the more than 80 
years since its passage, every amendment to the law has made it 
harder for workers to form unions.
    Today, union busting consultants are paid tens of millions 
of dollars to deny workers a voice on the job. And once a union 
election is won, the same bad actors do everything in their 
power to undermine the collective bargaining process. Workers 
are forced to sit in meetings where the only item on the agenda 
is bashing the union. Pro-union workers are fired, employers 
refuse to bargain in good faith, some refuse to bargain at all, 
and far too often the financial consequences for breaking 
Federal law is virtually nonexistent. This must change. The 
Protecting the Right to Organize Act will change it.
    Now, imagine if when running for office your opponent could 
force the electorate to listen to speeches urging them to vote 
against you. Imagine your opponent had the power to punish 
those voters if they did support you. Imagine that Congress 
refused to recognize your rightful election. And then imagine 
that once you finally were seated, you were denied the basic 
rights and responsibilities that come with that office. That is 
the grim reality that workers face today. They see it in a 
number of places: misinformation, reprisals, delays, threats. 
And after all those obstacles are overcome, an outright refusal 
to recognize the election results.
    I included several such examples in my written testimony. 
And that is why half of non-union workers want to join a union 
today, yet less than 12 percent actually have one. Why does it 
matter? Simply put, workers in unions bargain for higher wages 
and are much more likely to have healthcare and a pension. The 
union advantage is even greater for people of color and those 
without a college degree. Unionized workers have a real say in 
critical workplace issues, like time off to care for a loved 
one, the deployment of technology, protection from 
discrimination.
    A happier, healthier, more upwardly mobile work force is 
good for our economy as consumers have additional money to 
spend, local tax revenues increase, education funding is 
bolstered, inequality shrinks. It is a virtuous cycle upward, 
not downward.
    The union movement and all working people are hungry for 
pro-worker reforms to existing labor laws. The PRO Act would do 
many important things. Chief among them, provide more 
substantial relief for workers whose rights have been violated, 
ensure a process for reaching a first contract once a union is 
recognized, and create a true deterrent so that employers think 
twice before violating the law.
    Something is happening in America. Workers are embracing 
collective action with a fervor that I have not seen in a 
generation. It is time for our laws to catch up, it is time to 
make the PRO Act the law of the land.
    Thank you very much.
    [The statement of Mr. Trumka follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairwoman WILSON. Thank you so much, Mr. Trumka.
    We will now recognize Mr. Staus. Welcome.

             STATEMENT OF JIM STAUS, PITTSBURGH, PA

    Mr. STAUS. Madame Chair Wilson, Ranking Member Walberg, and 
members of the committee, thank you for the opportunity to 
testify today.
    My name is Jim Staus. I am a part-time porter in 
Pittsburgh, Pennsylvania.
    I am honored to speak with you today about the PRO Act. 
Seven years ago I started to organize a union at University of 
Pittsburgh Medical Center, or UPMC. I learned firsthand what 
workers face when they try to stand up for better wages and 
safer working conditions.
    When I went to work at the UPMC in 2006, I thought that if 
I worked for the biggest employer in the city I would be able 
to provide for my family. If you ask my neighbors about good 
jobs, they say try to work at the hospital, they pay well. But 
I quickly learned that things at the hospital were not what I 
pictured. UPMC is a $19 billion global entity. I still started 
at $9.60 an hour. I was surprised that I was making so little, 
but I thought if I just worked hard things would change. So I 
went to work at 5 a.m. each day and gave my best.
    My job was demanding. I had to carry 300 pounds of supplies 
per unit per shift. My job should have been performed with a 
power jack, but we had to use manual ones. We had no back 
braces either. I am not a doctor and I cannot prove that I got 
hurt from working without proper safety equipment. I can, 
however, tell you that I have had two knee replacement 
surgeries. I can also tell you that I could not make ends meet. 
I needed government assistance to put food on the table for my 
family the whole time. One particularly rough winter, our water 
was shut off, so my wife and I had to melt snow to be able to 
flush our toilets.
    Still, I enjoyed my job. I liked helping people recover 
from illness and injuries. In 2012, UPMC workers began to talk 
about forming their union. I wanted in. In Pittsburgh, everyone 
knows the union turned dangerous, low-paying steel jobs into 
middle class jobs. If workers came together, I knew that I 
could make a better future for my wife, Cindy, and daughter, 
Hannah, my co-workers too.
    But instead of respecting our rights to organize our 
hospital better, UPMC launched a fierce anti-union campaign. We 
were faced with threats and intimidation. One of the first 
scare tactics was holding a mandatory staff meeting to attack 
the union.
    Management's harassment of me got worse when I wore a 
sticker saying ``I am with Ron'' to support Ron Oakes, who was 
illegally fired from UPMC for union organizing.
    After that I became the prime target for management anti-
union campaign. Management followed me around and threw out my 
pro-union literature. I was ostracized to the point where many 
co-workers were scared to talk to me about the union.
    Then things came to a head. After years of having positive 
work evaluations, I was placed on a performance improvement 
plan. Soon after, in 2013, I was illegally fired, along with 
others who wanted the union. We fought the terminations.
    In 2014 a judge from the National Labor Relations Board 
said UPMC has violated our rights and ordered them to put us 
back to work. In 2018 the NLRB told them again, but UPMC is 
still appealing my case.
    Sadly, my story is not unique. Working people are supposed 
to have union rights, but we have to risk everything to 
exercise them. We need new laws like the PRO Act to hold 
companies accountable and to make it easier for people to join 
unions. We must stop them from using scare tactics, like 
captive audience meetings. We need real penalties so companies 
will think twice about illegally firing people, like Ron and 
myself. We need to force companies to make things right quickly 
when they break the law.
    The Federal Government twice found UPMC wrongly fired me, 
but 6 years later I still haven't returned to work or seen a 
penny of back-pay. And everything I have earned since I was 
fired is deducted from what UPMC owes me. By trying to provide 
for my family at another job, I am working off UPMC's debt. 
That is not right.
    I urge the members of this committee to support the PRO Act 
and help ensure what happened to me doesn't happen to anybody 
again.
    Thank you.
    [The statement of Mr. Staus follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman WILSON. Thank you, Mr. Staus.
    We will now recognize Mr. Miscimarra.
    Mr. MISCIMARRA. Thank you.
    Chairwoman WILSON. You are welcome.

STATEMENT OF PHILIP A. MISCIMARRA J.D., PARTNER, MORGAN, LEWIS 
                         & BOCKIUS LLP

    Mr. MISCIMARRA. Chairperson Wilson, Ranking Member Walberg, 
and Subcommittee members, thank you for the invitation to be 
here.
    I am a partner in the law firm, Morgan Lewis & Bockius, but 
I had the privilege of serving as Chairman of the National 
Labor Relations Board, as board member and acting chairman from 
2013 to December 2017. I might add, I served on the NLRB with 
my friend, Mark Pearce, who is seated here to my left. I am 
also a Senior Fellow in the Wharton Center for Human Resources 
at the University of Pennsylvania's Wharton School.
    Everyone in Congress wants to do good when considering 
changes in our Federal labor laws. Based on four reasons, I 
think the changes proposed in H.R. 2474, though intended for 
good, would do significant harm.
    First, this legislation disregards the remarkable work done 
by the NLRB, and especially its dedicated career professionals 
and staff members throughout the country. Parties can pursue 
and NLRB charge from start to finish without a lawyer. Also, 
nearly 20,000 unfair labor practice charges are filed annually 
and roughly 90 percent are completely resolved within three or 
4 months and employees get near immediate relief in those 
cases. And in the 5 or 6 percent of cases that are not resolved 
at this early stage, the overwhelming majority of Board 
decisions are unanimous.
    Here is my second point, the National Labor Relations Act 
carefully balances the competing interests of employees, 
employers, unions, and the public. H.R. 2474 would dramatically 
change this balance. For example, the bill would permit union 
strikes and boycotts targeting neutral parties, basically 
everybody who does business with the struck employer. These 
secondary boycotts have been unlawful for more than 70 years.
    Another example, any struck employer would be prohibited 
from continuing operations using permanent replacements.
    Employers but not unions would be barred from being parties 
in NLRB elections cases. In many cases the bill would eliminate 
the employee right to vote in NLRB elections, substituting 
mandatory union recognition with an election.
    In many first contract negotiations the bill would 
eliminate the employee right to vote on contract ratification, 
substituting arbitrator-imposed terms for a 2-year period or 
more. The bill provides for two-track NLRB and court litigation 
over the same issues with expanded damages.
    The bill would override state laws adopted in more than 
half the country that prevent employees from being forced to 
make mandatory union agency fee payments. And the bill would 
even redefine the terms ``employer'' and ``employee.''
    My third reason for opposing this bill involves the role 
played by economic weapons.
    Now, the NLRA was adopted during the Great Depression. It 
centers around a bargaining model where leverage is based on 
each side's potential infliction of economic injury on the 
other party. In a global economy this puts unions and employers 
in a relay race. And in the United States, unions have an 
incentive to use the baton to injure the employer instead of 
running the race against global competitors.
    H.R. 2474 increases the intensity of the weapons while 
expanding the role played by conflict and economic injury. I 
think this moves U.S. labor policy in the wrong direction, 
especially when it comes to trade, jobs, and our place in the 
world economy.
    Finally, as everyone knows, recent years have spawned 
dramatic advances in robotics, self-driving vehicles, 
artificial intelligence, and automation. Simply stated, this is 
the worst time in U.S. history, and probably the worst time in 
human history, to adopt a national labor policy that increases 
employment-related conflict costs and disruptions, which 
companies can and will avoid by using more fully automated 
systems. This bill, if enacted, will inevitably cause more 
investment in technology and less investment in people.
    I will conclude with this, Congress produced a remarkable 
achievement in the National Labor Relations Act, which the 
Supreme Court said is not intended to serve any party's 
individual interest, but to foster in a neutral manner, a 
system in which conflict between these interests may be 
resolved.
    H.R. 2474 departs from this neutrality, and I think it 
would disadvantage employees, employers, unions, and the public 
interest.
    Thank you again, and I look forward to the Subcommittee's 
questions.
    [The statement of Mr. Miscimarra follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman WILSON. Thank you. Thank you very much.
    We will now recognize Mr. Pearce. Welcome.

 STATEMENT OF MARK GASTON PEARCE J.D., EXECUTIVE DIRECTOR AND 
  DISTINGUISHED LECTURER, GEORGETOWN UNIVERSITY LAW CENTER'S 
                   WORKERS' RIGHTS INSTITUTE

    Mr. PEARCE. Thank you, Chairperson Wilson, thank you 
Ranking Member Walberg.
    I really appreciate the opportunity to speak here today. 
This is a special privilege for me because I spent half of my 
40 year career working with the National Labor Relations Board, 
first as a lawyer, then ultimately as a Board member and as a 
chairman.
    The Nation Labor Relations Board is the agency charged with 
enforcing the foremost labor law in the country, the National 
Labor Relations Act. It has, however, been hampered in 
effectively enforcing the Act because of its remedies failing 
to deter unlawful conduct. That is why the statutory change is 
needed, to update the law to reflect today's workplace.
    Compare Congress with an auto plant charged with producing 
legislation to protect working people in this country. The NLRA 
would be described as a heavy duty vehicle with major design 
flaws, an underpowered engine, and only three wheels.
    I would like to highlight four main shortcomings of the law 
as it exists today: inadequate remedies for violations, 
procedural obstacles to relief, insufficient protections during 
the bargaining process, unfair remedies in cases involving 
undocumented workers.
    With regard to inadequate remedies, Section 10(c) of the 
National Labor Relations Act limits remedies to a cease-and-
desist order; in the event of an unlawful firing, reinstatement 
with back pay; along with a required notice posting. That has 
been, in effect, a slap on the wrist.
    By contract, other worker protections statutes, like Title 
VII of the Civil Rights Act and the Fair Labor Standards Act, 
provide compensatory damages, liquidated damages, and sometimes 
punitive damages. These people have been harmed, they have been 
damaged. They don't have to have a requirement that requires 
them, as this worker just testified, to pay back the debts of 
the wrongdoer in order to be entitled to compensation.
    Limitations in the current statutory scheme make it 
economically rational for employers to violate the Act. An 
example being a case that is cited by both me and my colleague, 
Mr. Miscimarra, Pacific Beach Hotel, which is detailed in my 
written statement. That is a case where for the span of 10 
years the employer blatantly violated the National Labor 
Relations Act, and each time when the Board went back they 
would have to go into court to enforce the orders. Each time, 
the parties had to pony up big legal expenses in order to get 
that done. Each time, employees were told that they would get 
recompensed and that the unilateral changes that were being 
created will be rectified. And each time the employer violated 
it. For 10 years. The question becomes what does an employee 
think of an Act when for 10 years they are being abused by an 
employer and there is nothing in the Act to stop it from 
happening?
    Procedural obstacles to relief have been significant. When 
workers filed charges with the NLRB, they are often left to 
work for a significant period of time. And in many instances, 
as the Chairperson eloquently said, justice delayed is justice 
denied. By the time a case worked its way through the NLRB 
process, its litigation in Federal court, several years may 
have lapsed. For this reason, only one-third of those people 
entitled to reinstatement accept reinstatement. The PRO Act 
would help address the problems of delay by authorizing the 
Board to seek injunctions in Federal district court.
    Strengthening the protections of the bargaining process is 
something that is also going to be needed, and that is detailed 
also in my report, with mediation and arbitration of contract 
issues, an essential piece of a bargaining process designed to 
facilitate collective bargaining.
    I can say a lot more, but I am out of time.
    Thank you very much.
    [The statement of Mr. Pearce follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairwoman WILSON. Under committee rule 8A we will now 
question witnesses under the 5 minute rule.
    Thank you so much for your testimony--riveting testimony. 
And we appreciate it.
    I will now yield myself 5 minutes.
    Mr. Trumka, the right to join a union is an internationally 
recognized human right and protected by Federal labor laws, but 
in the United States it is frequently violated in practice.
    Why do workers need unions? How can civil monetary 
penalties and damages for severe economic harm deter employers 
from retaliating against workers engaged in union organizing 
with near impunity?
    It is a two pronged question.
    Mr. TRUMKA. Madam Chairman, workers need unions because the 
power imbalance between employers and individuals is vast. An 
employer is not required to talk to an individual employee or 
even a group of employees to ask them what they want. Only 
whenever they come together as a union in concerted activity do 
they have the power and ability to talk for a union. And what 
happens is evident, they make more money, a benefit of roughly 
13 percent more. Women, Latino women, make $11,000 more for 
being in a union. African Americans make $9,000 a year more for 
being in a union. Women in general make $9,000 more for being 
in a union. Only by being in a union can they talk collectively 
and actually bargain for a fairer deal.
    We have seen what has happened since the union density has 
fallen in this country. Wages have stagnated or gone backwards. 
There was recently a study that said that the lack of union 
density has also hurt non-union workers to the tune of $2,700 a 
year. If unions had been the same density as they were in the 
`90's and `80's, non-union workers would be making $2,700 a 
year more.
    So it is to balance the scale, to balance the power of 
employers and employees. Workers have to come together and 
speak with one voice and then they can come to the table and 
negotiate as equals, not as supplicants. That is why it is so 
important. It is for dignity, it is for respect, and it is for 
the ability to raise their standard of living and get a fair 
share of what they produce.
    Chairwoman WILSON. Thank you.
    I understand, Mr. Staus, that UPMC fired you for union 
organizing in 2013. Five years later, the National Labor 
Relations Board ordered that they reinstate you with back pay, 
and they have not done so.
    Mr. STAUS. No, ma'am.
    Chairwoman WILSON. Why were you fighting so hard, and why 
are you still fighting?
    Mr. STAUS. Well, I am fighting so hard not only for myself 
and my family but for the region, the Pittsburgh region. What 
they are doing at UPMC is wrong, and they need to be held 
accountable for their actions.
    Chairwoman WILSON. What needs to change in the laws to 
safeguard your rights and your fellow workers' rights?
    Mr. STAUS. Well, we need the PRO Act to take effect because 
right now the laws as they are today have no teeth. UPMC and 
the like are able to get away with whatever they want and there 
is no repercussion for them.
    Chairwoman WILSON. Thank you. Mr. Pearce, your career 
embodies the best in public service. In your testimony you 
described how, despite your best efforts, the NLRA fails to 
deter or fully remedy violations. What are some of the 
obstacles workers face when they seek to vindicate their 
rights, and how would the PRO Act address those obstacles?
    Mr. PEARCE. Well, one major obstacle is that an employee 
does not even know what their rights are because they are not 
permitted the opportunity to see notices, just like with the 
Department of Labor and with OSHA--they can have notices on the 
wall. The National Labor Relations Act is not placed on the 
wall. Efforts have been made for us to be able to do that and 
it was struck down by the courts by the opposition of forces 
that were led by my esteemed colleague here, while he was in 
private practice.
    But then there is the protracted nature of the process. The 
investigations take about 30 days, the trial takes almost a 
year to culminate, and then afterwards it is appealed to the 
Board where the Board can take a significant amount of time 
before a decision gets issued. That decision is not self-
enforcing. So the parties can appeal that to the courts and 
have it tied up for a significant period of time.
    Meanwhile, people are losing homes, people are getting 
divorced, people are not able to meet their rent or pay for 
their children's education, people lose hope.
    Chairwoman WILSON. Thank you so much for your testimony.
    I now recognize the distinguished Ranking Member Walberg 
for his round of questions.
    Mr. WALBERG. Thank you, Madam Chairwoman. And thanks to the 
panel for being here.
    Mr. Miscimarra, H.R. 2474 requires business owners to turn 
over reams of personal information about workers to unions, 
including home addresses, home phone numbers, cell phone 
numbers, personal emails, and much more. If this legislation is 
enacted, would workers have any say in whether their personal 
information is shared with the union? And, second, what risks 
might this scheme create for workers?
    Mr. MISCIMARRA. Representative Walberg, thanks for that 
question.
    When the NLRB was engaged in rulemaking, which led up to 
the adoption of a new election rule in 2014, significant 
concerns were expressed about the lack of consent or any opt-
out procedures or any safeguards associated with what would be 
the new requirement that employers would provide personal 
information to unions in connection with NLRB conducted 
elections. And the personal information includes personal 
telephone numbers, work telephone numbers, cell phone numbers, 
when they are available, work email addresses, and when they 
are available, home email account addresses as well.
    There were concerns that were expressed. We had a 2-day 
hearing in connection with that rule and the board ultimately 
adopted a requirement that these disclosures take place without 
any safeguards associated with this personal information, and 
also without any provisions for consent or opt in or opt out. 
H.R. 2474 codifies exactly the same disclosure requirements and 
there really are not safeguards in the bill, nor are there in 
the regulations adopted by the board and it is currently still 
in effect.
    Mr. WALBERG. Far different than getting approval, voluntary 
status from workers saying yes, sure, this is information I 
want to know about, so here is the information that you need to 
get a hold of me.
    Mr. Miscimarra, union corruption remains an unfortunate 
problem. It is not every case, but as seen recently in my home 
state of Michigan with UAW, where union leaders spend hard-
earned worker dues on excesses like $1,100 pairs of shoes, two 
$37,000 gold pens. Fortunately, Michigan is an employee free 
choice state, so workers cannot be forced to fund such 
extravagant and likely illegal spending against their will. 
However, H.R. 2474 prohibits states from enacting right-to-work 
protections. Would banning right-to-work laws make union 
leaders like those at UAW more or less accountable to workers?
    Mr. MISCIMARRA. Well, Representative Walberg, the bill 
would override the state right-to-work laws passed in 27 states 
that protect employees from being forced to make mandatory 
union agency fee payments. And one of the points that I made in 
my oral testimony, as well as my written testimony, is that the 
bill really does not continue the balance between competing 
interests among employers and employees and unions and the 
public. And with respect to obligations and requirements under 
the law, the bill would impose significantly greater 
requirements on employers and there are no additional 
requirements on unions.
    Mr. WALBERG. Okay. Mr. Miscimarra, according to polling 
from Opinion Research Corporation, 81 percent of union 
households and 81 percent of Democrats support the right to a 
secret ballot in union elections. H.R. 2474 allows unions to 
automatically be approved under certain circumstances, even 
after they lose a secret ballot vote.
    What risks does it create for workers to allow unions to be 
certified without winning a secret ballot?
    Mr. MISCIMARRA. Well, the challenge in those cases is to 
the extent that employees have not had the opportunity to vote 
in the secret ballot election, it is not clear what the 
employee sentiments are with respect to union representation. 
And the preferred method for decades under the National Labor 
Relations Act has been for union sentiments to be tested in the 
context of an NLRB-conducted secret ballot election, which the 
board conducts in a very efficient and very effective manner 
that instills confidence in all the parties.
    To the extent that, as the bill would require, to the 
extent that in particular cases bargaining orders would require 
union recognition and negotiations without any secret ballot 
election in those instances, once the union is in there are 
significant challenges associated with the ability of employees 
to ever vote on the possibility of decertifying the union or 
continuing union representation. Of course, if you don't have 
an election, you don't know how the election is going to turn 
out.
    So once a union is in, there are certain bar rules. The 
existence of a 3-year contract, for example, would prevent 
employees from even having an NLRB election until the last 90 
days prior to the expiration of that contract.
    So bypassing a secret ballot election, at least with 
respect to current law and the Board's practice for 83 years, 
is a very significant issue. And one never knows what employee 
sentiments would be expressed if they had the opportunity 
merely to express those sentiments in a board conducted 
election.
    Mr. WALBERG. I thank the gentleman.
    Chairwoman WILSON. Thank you so much, Mr. Walberg.
    We will now go to the member's questions. Mr. Norcross, of 
New Jersey.
    Mr. NORCROSS. Thank you, Madam Chairwoman, and appreciate 
you putting together this hearing and certainly to my 
colleagues on the other side of the isle. We have many similar 
views, but on this one I think we are going to diverge, just a 
little bit.
    Isn't it ironic that we are hearing about corruption and we 
are being challenged by members of Congress talking about this? 
Or is it more ironic that we are talking about preserving 
elections when Russians just hacked ours and we are trying to 
shut that down?
    Can we get back to the point here that if we look at the 
density of unions over the course of the last 25 years, and it 
has declined, the middle class is doing worse, and the fact of 
the matter we are having more challenges at the NLRB.
    Now, for 37 years I was an electrician. I was a union 
representative. I filed probably more elections at the NLRB 
than this entire group combined. I understand firsthand how it 
works on both ends. And I will start off by saying not every 
employer is a bad employer. We have some very good employers 
that we work with. But when we have the bad ones, they can 
abuse this system to the nth degree, really crushing people 
like you.
    So when we have a conversation--I want to remind, we have 
213 attorneys in Congress and there is only 1 electrician. What 
is my point? It is I understand this, I have lived it from both 
sides.
    So, Mr. Trumka, thank you for coming in. And you 
understand, you have heard, you have lived, coming out of the 
mines, how tough it is sometimes. When we look at finally as 
the process goes, you file for elections, and let us just 
assume that the union wins it, then you have to sustain that 
recognition. And let us say you make it through that second 
step and then you try to bargain for your first contract. What 
happens then typically when there is an adversarial 
relationship? Is this something that they can force their way 
and say let us get a contract, let us go to arbitration and 
figure this out? Or what typically happens?
    Chairwoman WILSON. Turn on your microphone.
    Mr. TRUMKA. Let me start with a general statement and work 
down to what you said. The law as currently written gives the 
employer to decide whether or not workers will have a union. It 
was never intended that way.
    Since 1935 the law has allowed and accepted the fact that 
when a worker and an employer don't disagree, you can have 
recognition without an election. They do it most of the time in 
the country. So that has been since 1935, been the law. Only 
recently has it been questioned.
    Now, one of the colleagues here wanted to make this seem 
like this was almost like a governmental election. Well, when 
you all get elected, you are getting elected to govern. When a 
union gets elected, it is to represent the workers there. It is 
like their lawyer. That is all that they are getting at that 
point.
    And I might add that whenever a majority of people or a 
minority of people don't vote for you, they are still governed 
by what you do afterwards forever. In this election, with 
14(b), they get a chance to say we vote no, we also won't get 
in, but we want all the benefits that a union has to bring, and 
we don't have to pay a cent for it. That is what you are 
sanctioning here, that is what comes out.
    What happens is normally the employer will surface bargain. 
They will not bargain with you, they will not give you 
proposals, it doesn't go back and forth. The first thing will 
happen is you will ask for information and it will take them 
several months to get you the information, and then it is not 
all there. So you ask for it again. And if they don't give it 
to you, then you go to the Board and you go through a bunch of 
charges that take 3 or 4 years. Finally, if you get the 
information, they sit down, they are not required to agree, all 
they do is mouth empty words at you. And you can tell pretty 
quickly if they are trying to get to an agreement or whether 
they are trying to get to impasse so that they can declare 
things and go on their merry way.
    Mr. NORCROSS. So what typically happens to the person of 
the workers who have organized this? Are they targeted? What 
usually happens to the--
    Mr. TRUMKA. Absolutely. Take the--they always get targeted. 
They always get targeted, they get fired, and as you heard from 
my friend next to me, it will take months, years for them to 
get back. And when they do get back all the money that was 
spent defending them is tax deductible. Any money that the 
worker gets or earns in that interim period is deducted from 
what the employer pays. It virtually costs them nothing.
    In the case of Kumho Tire, we had a guy that was fired. He 
got fired at a non-union shop and he went to a union shop and 
actually had better wages. So when he gets put back in 3 years, 
they will owe nothing, which--
    Mr. NORCROSS. Thank you. We are out of time, but I want to 
thank you for your testimony.
    Mr. TRUMKA. Thank you.
    Chairwoman WILSON. Thank you so much. Thank you so much.
    Dr. Foxx. Distinguished Dr. Foxx.
    Mrs. FOXX. Thank you, Madam Chairman.
    Mr. Miscimarra, last time Democrats held the majority in 
the House they voted to deny workers the right to a secret 
ballot for union elections. This is a right guaranteed to all 
Americans when they vote for representation in Congress, and 
the same right guaranteed to congressional Democrats when they 
vote for their own caucus leadership.
    Under H.R. 2472, could some unions be automatically 
certified even though they lose in a secret ballot vote? And 
why might union bosses prefer this scheme?
    Mr. MISCIMARRA. Thank you for the question, Dr. Foxx.
    The H.R. 2474 specifically provides if a union loses an 
election and if there are unfair labor practice charges that 
are filed, if the employer does not sustain the burden of 
proving that any unfair labor practice charges would not have 
altered the outcome of the election, the union is then 
automatically recognized as the exclusive bargaining 
representative without conducting another election.
    And as I explained previously, that prevents employees from 
being able to express their sentiments in the confines of the 
voting booth, which the board has always said is the preferred 
course for testing employee sentiments regarding union 
representation.
    Mrs. FOXX. Thank you.
    Mr. Miscimarra, despite Democrat claims that the decline of 
unions has harmed workers, Americans are inarguably better off 
today than they were decades ago when the union participation 
was higher. And by the way, we have the figures to prove that, 
despite what others may say here today.
    A significant provision in H.R. 2474 repeals the ban on 
secondary boycotts, subjecting even more employers, workers, 
and customers to union harassment. In your view, does this 
provision, not to mention the bill overall, threaten economic 
growth? And what impacts would secondary boycotts have on 
business owners, workers, and the overall health of the U.S. 
economy?
    Mr. MISCIMARRA. Well, Dr. Foxx, the term secondary boycotts 
is an important one when it comes to labor law. And what a 
secondary boycott means is if a union has a dispute with you, 
under current law the union can move forward and can use 
picketing and other means, other economic weapons against you, 
but the union can't spread that dispute to everybody in our 
complicated economy merely because they do business with you.
    In the United States we had that state of affairs for 12 
years. The Act was passed in 1935 and then there were 
amendments that were made in 1947 that, among other things, 
barred secondary boycotts because they were having too 
debilitating an effect on the U.S. economy. The next amendments 
to the Act occurred in 1959 and Congress strengthened the 
prohibitions against secondary boycotts because there were 
loopholes during the original restrictions that still permitted 
labor disputes to have widespread, debilitating effects 
throughout the economy.
    What H.R. 2474 does is repeal in their entirety the 
provisions that bar secondary boycotts. So we would have, under 
this bill, not only the type of conflict and dissention that as 
I indicated is part and parcel of our collective bargaining 
motto under the statute, but we would return to a state of 
affairs that has not existed in this country for more than 70 
years, which would be a very, very significant change in the 
law.
    Mrs. FOXX. Thank you, Mr. Miscimarra.
    In the event of a collective bargaining impasse, H.R. 2474 
requires employers and unions to enter arbitration, allowing 
the unelected bureaucrats to write a binding union contract. 
The bill states that the contract ``shall be based on the wages 
and benefits other employers in the same business provide their 
employees.'' Does that mean that under this standard a mom and 
pop retail small business would have to accept the same union 
contract terms as a mega corporation like Walmart or Amazon? 
What effect would this mandate have on small businesses and 
their employees?
    Mr. MISCIMARRA. Well, Dr. Foxx, there are two potential 
effects. One is, we don't know what an arbitrator would do in 
that circumstance where the arbitrator inherits--these are 
initial contract negotiations where an arbitrator inherits a 
small business, a union, and various competing demands that may 
be very, very far apart. And there is a risk, since we are 
talking here about contract terms that are imposed and not 
agreed upon. There is no certainty regarding what the employer 
could confront, and it is possible that imposed terms would 
actually be not only injurious to the employer, but injurious 
to the employer, the employees, the union itself, even though 
the union was seeking those terms.
    The one other point I will make is that current law has 
been very clear that the NLRB regulates the process of 
collective bargaining, but the NLRB does not have the authority 
to impose substantive contract terms on parties. That has 
worked very well for the Act's 83-year history. This law, for 
the first time in the Act's history, would change that.
    Chairwoman WILSON. Thank you. Let us wrap it up.
    Mrs. FOXX. Thank you. Thank you, Mr. Miscimarra. And thank 
you, Madam Chairman.
    I would like to enter into the record an article called 
``Big Labor's Big Shrink'', which was in the Wall Street 
Journal on April 30.
    Chairwoman WILSON. So ordered.
    Mrs. FOXX. Thank you.
    Chairwoman WILSON. Now, Mr. Morelle.
    Mr. MORELLE. Thank you, Madam Chair, for holding this 
hearing, which is so important, and to all of our witnesses who 
are testifying today, and in particular, Mr. Trumka. Thank you 
for your lifetime of efforts on behalf of America's working 
families.
    Over the past 4 decades there has been a concerted effort 
to diminish the right of workers to organize and collectively 
bargain. And we have seen the impact of that in my district in 
upstate New York and throughout our country. These concerted 
efforts have had a serious impact on union density in 
Rochester, where I represent, and surrounding communities, 
resulting in suppressed wages for union and non-union workers. 
Something that is not often talked about is the impact on non-
union workers because the impact on union organizing.
    As the proud son of a pipefitter and a member of Plumbers 
and Steamfitters Local 13, United Association, I am glad to 
have the opportunity to focus on what can and should be done to 
deter unfair labor practice.
    And I want to start, if I might, Mr. Staus, if I can ask 
you, Federal law states that it is the policy of the U.S. 
Government to ``protect your freedom of association, promote 
collective bargaining''. The National Labor Relations Board 
decided in 2018 that you were unlawfully terminated, but your 
employer has not yet given you a cent of back pay, as I 
understand from your testimony.
    Mr. STAUS. That is true.
    Mr. MORELLE. I gather that is because the NLRB is weaker 
than other Federal agencies in that it cannot enforce its own 
orders.
    With that in mind, do you feel the law as stated is living 
up to its stated purpose?
    Mr. STAUS. No, it is not. We need something like the PRO 
Act to give the law some teeth, because, you know, it has been 
6 years and I haven't got penny one or reinstated.
    Mr. MORELLE. Thank you. Obviously a law failing to meet its 
stated goal needs to be changed and updated, the purpose of our 
conversation here.
    I wanted to just, if I could, Mr. Pearce, because of that 
lack of the ability for the NLRB to have sanctions or be able 
to implement sanctions, how do employers abuse that deficiency 
in the law? Could you just describe that a little bit?
    Mr. PEARCE. Well, employers are able to--if they want to 
snuff out a union's organizing drive, the employer can take 
full advantage of violating the law with minimum repercussions. 
You terminate an individual, like Ron Oakes, and kill the 
organizing drive. You could possibly put the back pay owed to 
that individual in a low interest savings account and by the 
time there is a determination that you have to pay and you 
subtract the interim earnings from that, you have made money on 
your wrongdoing.
    Mr. MORELLE. Obviously something the law is not intended to 
provide an opportunity for that.
    Mr. PEARCE. Not at all.
    Mr. MORELLE. One just followup, in Mr. Miscimarra's 
testimony, and this is for Mr. Pearce--I am just curious--he 
cites 2014 case Pacific Beach Hotel as an example of the NLRB 
having sufficient teeth to defer unfair labor practices. I 
notice that you cite the same case in your testimony. Sort of 
unusual that you both point to the same thing.
    Were the remedies that Mr. Miscimarra listed actually 
significant, were they enough to deter the employer from 
violating the NLRA over a period of years? Because deterrence 
is obviously a big part of what we hope to do with sanctions.
    Mr. PEARCE. We were talking about recidivists that engaged 
in bad doings over the span of 10 years. And repeated 
violations of the Act were brought forth and pursued in court. 
We ultimately, as a unanimous body, concluded that these 
egregious violations needed to be remedied. We went through 
every possible effort to fit the remedy with the crime within 
the limitations of the statute. And a lot of that was upheld by 
the court, even though it was dissented to by some of our 
colleagues.
    The one remedy that was significant is the court costs of 
having to go to court each time in order to rectify these 
circumstances, and we ordered costs to the general counsel and 
to the charging parties because of the abuse of the process 
that was being subjected to.
    Well, the DC Circuit, while they upheld our other efforts, 
struck that down because there was no statutory authority for 
us to impose those things.
    So otherwise, resources that were utilized to try to 
enforce this were denied this agency so it could not 
effectively investigate cases and apply its resources in order 
to protect the working people.
    Mr. MORELLE. Very good. Well, thank you, sir.
    Thank you, Madam Chair.
    Chairwoman WILSON. Thank you.
    The renowned Dr. Roe.
    Mr. ROE. Thank you, Madam Chairwoman. I appreciate that.
    First of all, welcome back, Mr. Miscimarra and Chairman 
Pearce, to the Committee. It is good to see both of you again.
    Mr. MISCIMARRA. Thank you.
    Mr. ROE. I grew up in a union household, as Mr. Walberg 
did. My dad worked almost 40 years in the United States Workers 
Union. I think it is Steelworkers' now.
    Forty-five years ago I put on a uniform, left this country, 
and served 11 miles south of the DMZ in Korea to ensure that 
you had the basic rights given to you by the Constitution of 
this country, which is a secret ballot. I say this jokingly, 
but my wife claims she votes for me. I don't know for sure that 
she does because it is a secret ballot, and that is the way it 
should be. And I bet Mr. Trumka was also elected by the secret 
ballot. I know everybody on this dais was. I think that is one 
of the most fundamental basic rights we have as an American 
citizen, is a secret ballot. And we should protect that above 
almost anything. It is what helps guarantee our democracy.
    I can say I appreciate what the unions do and in many 
cases--and apprenticeships. I have worked with you on that and 
certainly we have had legislation here. In Tennessee, in my 
state, we have 3.2 percent unemployment. And the union 
penetration there is about 5.5 percent I think. And I don't 
believe the problem is a decline in not too few unions, I think 
the problem in my state is too few skilled workers. We are 
looking to find workers. Everywhere you look there is a help 
wanted sign in the state of Tennessee.
    So the second thing I want to bring up is the personal 
information. Look, I think that is yours and you should decide 
as an individual. You have the freedom to do that. If you want 
to share that information you should be able to do that, but it 
shouldn't be required of you.
    And last, before I ask some questions, I want to enter, 
Madam Chairman, into the record a letter that 82 House 
Democrats, including Chairman Scott, and 11 other members of 
this committee, wrote to Ambassador Lighthizer. Some of the 
members serve on the HELP Subcommittee. In it they say this, 
that they express concerns in the USMCA agreement that the 
ability of a Mexican worker to exercise a free secret and 
personal vote on a collecting bargaining agreement.
    So while my colleague is advocating the basic right for a 
Mexican worker, but denying that right for an American worker. 
And right here it is and I would like to submit that for the 
record.
    And I would assume given that, that members would vote 
against their own bill because I do believe that the PRO Act is 
a solution looking for a problem, not the other way around.
    Mr. Miscimarra, I want to ask you a couple of questions.
    And 2474 requires employers to turn over reams of personal 
information to the union about every worker, such as their home 
address, phone number, cell phone, personal email, and other 
things. In your experience, how have you seen this information 
used?
    Mr. MISCIMARRA. Well, you know, I can't address, Dr. Roe, 
how the information is used, but as I indicated before, there 
were not--the bill does not provide for safeguards regarding 
the use of this information. And that was the source of 
significant concern during the public hearing that was held 
when the NLRB was considering the adoption of the 2014 election 
rule.
    One thing, though, that I would like to address, is my 
colleague, Mr. Pearce, made reference to the Pacific Beach 
case, and that was a case unquestionably it dealt with a 
recalcitrant employer and the Board imposed extraordinary 
remedies on that employer. But as I indicated previously, the 
Board's experience shows that in 95 percent of the cases that 
are filed, there are not recalcitrant employers. We are talking 
about cases that get resolved 95 percent of the time within the 
first four to 6 months. And so these recalcitrant employer 
examples are the tail of a dog. And what this legislation I 
think effectively does is it takes a problem with the tail and 
then dismembers the dog. And, you know, I think that operates 
to the detriment of not only employees and employers, but also 
the unions too.
    Mr. ROE. I think one of the problems with declining union 
membership has been we lost--my dad was in manufacturing and he 
lost his job to Mexico many, many years ago, and I think you 
are beginning to see those come back, and that is a very good 
thing under the current policies of this administration.
    My colleagues claim that the employers must hand over 
workers' personal information, otherwise unions have 
insufficient access to employees. Is that true?
    Mr. MISCIMARRA. Well, I don't think so, Dr. Roe. And, you 
know, we had a case that dealt with union organizing efforts or 
employee organizing efforts, it is called Purple 
Communications. And the question there was whether there were 
adequate means by which employees could organize or communicate 
with one another. And in connection with that case, one of the 
points that I made in a separate opinion was that we've seen 
entire national uprisings that have resulted from the use of 
social media. And so the notion that there has to be specific 
employer provided information for effective organizing to occur 
I don't believe has support.
    Mr. ROE. Thank you, Madam Chairman. I yield back.
    Chairwoman WILSON. Thank you.
    Ms. Wild?
    Ms. WILD. Thank you, Madam Chairwoman.
    I am proud to be a co-sponsor of the PRO Act and I thank 
you, Madam Chairwoman, for holding this subcommittee hearing.
    I am deeply troubled by the different standards for the 
actions of employers and the actions of employees or labor. I 
believe it has a chilling effect on workers' right and ability 
to organize.
    Mr. Trumka, I would like to address the mandatory captive 
audience meetings that are held. It is my understanding, and 
correct me if I am wrong, that under current law an employer 
can hold a mandatory captive audience meeting to dissuade 
employees from unionizing, so long as it is not held 24 hours 
prior to an election and so long as the meeting does not 
overtly threaten reprisal. Correct?
    Mr. TRUMKA. That is correct.
    Ms. WILD. On the other hand, if an employee leaves the 
meeting without permission, that employee is subject to penalty 
up to the point of termination. Is that fair to say?
    Mr. TRUMKA. Not only that, if an employee speaks up in a 
meeting and tries to rebut an untruthful statement that is 
made, they can be fired.
    Ms. WILD. Thank you. And yet it is, as I understand it, not 
permitted for a union or workers to campaign during work time. 
Correct?
    Mr. TRUMKA. That is correct.
    Ms. WILD. And they have to campaign during breaks or 
offsite or after working hours. Is that true?
    Mr. TRUMKA. Correct.
    Ms. WILD. And yet there is no limit under the law to the 
number of mandatory captive audience meetings that an employer 
can hold. Is that true?
    Mr. TRUMKA. That is correct. In fact, Kumho Tires, they had 
2 hour sweat sessions every day for 25 consecutive days, 
stopped the day before the election.
    Ms. WILD. And these are held throughout the workday, on 
work time, on the work site? True?
    Mr. TRUMKA. On work site, and they are mandatory. You don't 
have the choice to go or not to go.
    Ms. WILD. It seems to me that creates a rigged system, one 
that is almost destined to ensure that organized labor fails at 
its efforts. Is that a fair statement?
    Mr. TRUMKA. Just the fact that they can make you go to a 
meeting demonstrates to workers how much power they have. And 
then the fact that you can't speak demonstrates the power 
again. The message is, I have the power, you don't. I will use 
it, you can't.
    Ms. WILD. And we have heard from Mr. Staus, who lost his 
job. Is it your belief that workers who want to organize would 
be subject to the same kind of fear of losing their jobs? Mr. 
Trumka?
    Mr. TRUMKA. Would you repeat that, ma'am? I thought you 
were talking--
    Ms. WILD. Yes, my question is whether these policies that 
we have just talked about lead employees potentially to believe 
that they will be terminated if they try to organize?
    Mr. TRUMKA. Absolutely. They are threatened with it. And 
not only that, they actually fire people. They fire people like 
my friend here and they put the head up on the wall and they 
say to people if you exercise your rights, the same thing will 
happen to you. And, yes, maybe 4, 5, 6 years down the road I 
may have to pay you back pay, but I get to deduct everything in 
the process, all the expenses, and I get to deduct from any 
back pay I may owe you any earnings you may have had in the 
interim. So it becomes virtually a cost of doing business. And 
these things occur in more and more and more frequency these 
days.
    Captive audience meetings are held in over 90 percent of 
organizing drives right now, and the number is growing. Before 
long it will be 100 percent.
    Ms. WILD. Not only is it a cost of doing business, but in 
fact it is often economically more beneficial to the employer 
to do exactly that. Isn't that true?
    Mr. TRUMKA. Absolutely.
    Ms. WILD. Okay.
    I have a question for any of you, but let me address it to 
Mr. Pearce. Under Federal law, workplace notices have to be 
conspicuously posted, advising employees of their rights under 
Title VII, the ADEA, FMLA, and OSHA. Why is it that there are 
no mandatory workplace notices advising employees of their 
rights under the NLRA?
    Mr. PEARCE. Because it is not specifically set forth in the 
statute. As I said in my opening statement, this is a car with 
three wheels with an under powered engine. This is an Act that 
is not self-enforcing. We have to wait for complaints from 
individuals if they are subjected to unfair labor practices. 
Clearly we are not going to get those complaints if those 
individuals don't know their rights.
    Ms. WILD. Thank you, Mr. Pearce.
    Madam Chairwoman, I ask recognition and unanimous consent 
to introduce into the record a letter dated May 8, 2019 from 
the International Brotherhood of Teamsters.
    Chairwoman WILSON. So ordered.
    Ms. WILD. Thank you. I yield back.
    Chairwoman WILSON. Thank you.
    Mr. Allen.
    Mr. ALLEN. Yes, and thank you very much.
    You know, Mr. Staus, it is sad that you or anyone was 
mistreated in the work force in this new economy, the best 
economy in the world. And I get out among the businesses 
because I come from the business community, and the people I 
talk to are growing wages and benefits to really keep their key 
people. In fact, in this--we have the best economy in the world 
and, you know, when I talk to folks, particularly about just 
Federal Government interference with things, we don't need more 
laws to deal with, you know, labor shortages, we need more 
skilled workers.
    And my experience is initially as a union contractor back 
in the early `70's. The biggest problem we had was a shortage 
of skilled workers. And so we had no choice but as companies to 
recruit and train workers to assist us, to get the work 
completed, and so did our subcontractors. And as a result, the 
unions--you know, most companies now are open shop or dual shop 
or whatever, to allow for that flexibility. But the bottom line 
is in this new economy companies are partnering with workers, 
particularly as it relates to 401Ks and ESOPs, which for 
whatever reason--and Mr. Miscimarra, you might can shed some 
light on this--be my first question--is I understand that the 
unions fight for ESOPs and 401K or anything that rewards 
employees beyond their abilities in a company, and these 
companies are, like I said, fighting to keep their workers. And 
so they are doing this. And, like I said, a lot of them are 
going to ESOPs and they are working out very well for their 
employees.
    Do you have any comment about, you know, how the two work 
together?
    Mr. MISCIMARRA. Representative Allen, thank you very much 
for the question.
    The one thing I will say is probably one of the most 
important, and the most challenging for all sides question that 
comes up in collective bargaining, and certainly this has been 
true for the past 20 years, involves methods of compensation 
and various arrangements that are much more complicated than 
they are today than they were 10-20-30 years ago. And so with 
respect to various types of especially retirement plans and 
other types of fringe benefits, it is from soup to nuts, it is 
all over the map. And I think that those present challenges for 
everybody.
    The one other thing, if I may, Representative Wild raised a 
question, why is there no notice requirement in the National 
Labor Relations Act. In point of fact, the original version of 
the Wagner Act legislation in 1934 had a proposed notice 
requirement and it had a separate unfair labor practice that 
targeted employers that failed to comply with the notice 
requirement. During the legislative debates it was discussed. 
Senator Wagner himself expressed opposition for that 
requirement. It was removed from the bill.
    Mr. ALLEN. Well, certainly my suggestions to our friends 
with the unions is to if they can recruit skilled workers--in 
this economy, you are going to find work. I can assure you of 
that.
    Let me ask you, Georgia is the sixth best state in the 
country to do business--or the best state to do business with 6 
years in a row. We are a right-to-work state. You know, I was 
at a union project, a nuclear power plant, met all the workers, 
going well, and we have your companies that are ESOP owned. 
And, like I said, it is what the people want, the right to 
choose.
    As far as this legislation, H.R. 2474, how does it deal 
with right to work states? And to give us the flexibility to do 
what we do and to be the best state to locate business, that 
produce jobs, by the way.
    Mr. MISCIMARRA. Well, I mean what the bill does, the 
principle effect on right-to-work states that the legislation 
has is to eliminate the protection that exists in more than 
half of the country for employees that object to paying 
mandatory union agency fee payments. And this legislation would 
override that employee protection.
    Mr. ALLEN. For example, if I choose to do a job in 
Washington, DC, I have no choice, I have to work union? So you 
are telling me this law is going to affect us like this in 
Georgia as well?
    Mr. MISCIMARRA. Well, to the extent that employees end up 
being represented by a union in Georgia, this law would prevent 
the Georgia right-to-work law from being given effect and those 
employees that have union representation could be required to 
make mandatory union agency fee payments, notwithstanding 
provisions in Georgia law to the contrary.
    Mr. ALLEN. Thank you, sir.
    I yield back.
    Chairwoman WILSON. Thank you very much.
    Mr. Courtney.
    Mr. COURTNEY. Thank you, Madam Chairwoman, and thank you to 
all the witnesses for being here today.
    I just wanted to followup actually on the Chairwoman's 
opening comments about the value of unions in terms of the 
standard of living of workers.
    Up in New England we actually witnessed the value of 
collective bargaining when 31,000 workers were organized with 
the United Food and Commercial Workers Union and employed by 
Stop and Shop, a grocery chain owned Ahold Delhaize, a Danish 
company, successfully exercised their rights to strike over 
proposed cuts to their pay and benefits.
    It was an 11 day strike and the company obviously 
calculated that they could outlast the union. What was at stake 
was almost existential for the middle class way of life for the 
people who work there. The employer proposed increasing health 
plan deductibles from $300 a year to $5,000 a year. They had 
proposed more than doubling health insurance premiums, they had 
proposed removing spousal coverage for health insurance, they 
proposed eliminating time and a half on Sundays, and they also 
proposed slashing pension contributions for full-time employees 
by half.
    What the company miscalculated was that in fact the public 
would support the picket lines that stood up in those grocery 
stores, again, in all the New England states, and after 11 days 
the strike ended and the UFCW was successful in restoring all 
of those out-of-pocket hits that workers would have taken and 
were not even close to being offset by any sort of modest wage 
increases, which were proposed.
    So, again, from the standpoint of the people who stock the 
shelves and work the cashier lines, who I met with afterwards, 
who, again, felt that they had taken their own economic destiny 
into their own hands by exercising their right to strike, it 
obviously paid off big time for them.
    So I know today, in Mr. Miscimarra's testimony, he has 
pointed to what he believes the employer's ability to 
permanently replace economic strikers, carefully balances 
competing interests. The PRO Act obviously would change that to 
not allow replacement strikers.
    Just looking at the experience of what just happened up in 
New England, where again 31,000 workers stood up for their way 
of life and their standard of living, can you, Mr. Trumka, just 
talk about how the PRO Act would clarify that employers not 
being able to retaliate against striking workers and how that 
would actually facilitate collective bargaining and bring some 
of these job actions to a swifter conclusion, like we just saw?
    Mr. TRUMKA. If in fact you can permanently replace workers, 
you take away their major leverage. They have no leverage left 
at that point. And so it encourages people, employers, to 
facilitate the dispute, escalate the dispute, and to replace 
the worker.
    And I would like to give him a hypothetical. I would like 
to offer him a job and say you can get--I am going to give you 
a job that pays $1 million a year and you have 360 days of 
vacation. And so you come in, you take your--you work a day or 
two and you go I have 360 days of vacation, I will just take a 
week. So you take a week and when you come back somebody is 
sitting in your chair and you go, what is this. And I say, 
well, I have replaced you. And he goes, but I was on vacation. 
Yes, that is correct, but you are now replaced, so you are 
gone.
    Does anybody believe that you really have 360 days of 
vacation? Does anybody believe you have the right to strike 
when they can replace you for actually exercising that right? 
Not having that right would force employers to come together 
with employees to work and actually negotiate a settlement. And 
so would the arbitration procedure. Because no one wants to 
have something imposed on them, so both sides would have an 
incentive.
    First, the employer would have an incentive to give you 
information quickly because there is a 90 day limit that you 
get to do that. Second of all, it would help you come to an 
agreement, because you don't want somebody else to take the 
chance that somebody will impose on you an agreement that you 
don't like. So it would actually encourage, it would level the 
playing field that is now terribly, terribly, terribly skewed 
in favor of the employer.
    Mr. COURTNEY. So basically your experience is that 
replacement workers basically kind of enable employers to just 
drag out job actions and delay actually resolutions of these 
kinds of disputes?
    Mr. TRUMKA. Absolutely.
    Mr. COURTNEY. Thank you.
    I yield back, Madam Chairwoman.
    Chairwoman WILSON. Thank you, Mr. Courtney.
    And now, Mr. Banks.
    Mr. BANKS. Thank you, Madam Chair.
    Mr. Miscimarra, in your testimony you say ``the biggest 
problem with the PRO Act is the expansion of economic weapons 
and economic injury. Increasing the scope of these economic 
weapons and making them more destructive will have a 
destabilizing impact on U.S. employees, employers, the general 
public, and unions.'' I believe you are entirely correct in 
that statement, especially in this complex global economy that 
we find ourselves in today.
    So can you elaborate on why it is so dangerous to weaponize 
labor relations in the global economy and how it is especially 
reckless to do so when working Americans are benefiting more 
than they have in decades in this substantially strong economy?
    Mr. MISCIMARRA. Thank you very much for the question, 
Representative Banks.
    There are many instances in my career--I say in my written 
testimony that I am a supporter and proponent of collective 
bargaining. It is to the credit of so many unions and so many 
employers that they have maintained and fostered constructive 
relationships throughout years and often decades of successful 
collective bargaining resulting in agreements. But, 
nonetheless, the engine that drives collective bargaining and 
the engine that has produced every collective bargaining 
agreement for 83 years under the National Labor Relations Act 
is either the infliction or the threatened infliction of 
economic injury. And for a union that is a strike, work 
stoppage, protest, or boycotts. For the employer, it is the 
possibility of a lock-out or the possibility of having 
temporary replacements or permanent replacements.
    The National Labor Relations Act was passed during the 
Great Depression. At that time there was barely a national 
economy. At the present we have a global economy, and as I 
indicated previously, that we have also made massive advances 
in terms of automation, technological change, artificial 
intelligence, and self-driving vehicles, for example. So the 
parties have done well under existing law with respect to a 
bargaining model that still has as its centerpiece the 
potential or actual infliction of economic injury.
    In a global economy that is very, very different. And I 
think one of the reasons why many employees have resisted the 
idea of union representation is it is counterintuitive for many 
employees to understand that it is in their interests to buy 
into a model that centers on potential economic injury to the 
place that employs them.
    Mr. BANKS. You mentioned automation again. You also did in 
your written testimony. And the danger that this poses to 
existing jobs, especially in production companies. I represent 
the state of Indiana, home to 544,000 manufacturing jobs, so 
this is particularly important to me. And while I share your 
concerns about the effective automation of jobs, would you 
agree that technological advancements also make workers more 
productive, an increase of available job opportunities, if we 
avoid bad policy choices like the PRO Act that force employers 
to cut jobs?
    Mr. MISCIMARRA. I completely agree with that. And as I 
indicate in my written testimony, you know, the American 
workplace has proved to be extraordinarily resilient with 
respect to its ability to adapt to changing conditions. So I 
think that there are many opportunities associated with 
technological advancements.
    But, to the extent that we adopt a national labor policy 
that exacerbates the type of conflict or the cost or the 
penalties or the efficiency of the workplace itself, I think 
that will be counterproductive.
    Mr. BANKS. Thank you very much.
    I yield back.
    Chairwoman WILSON. Thank you.
    And now our former Secretary of Health and Human Services, 
Dr. Shalala.
    Ms. SHALALA. Thank you very much.
    I sat through this whole hearing in large part because I 
found Mr. Staus' testimony so compelling.
    So, Mr. Miscimarra, you have made it very clear that you 
don't favor the bill that we have before us. You have heard his 
testimony, you were a member of the National Labor Relations 
Board the first time the NLRB ordered him to be reinstated by 
the University of Pittsburgh Medical Center, and then they 
ordered him again to be reinstated. And they didn't do it.
    Can you really look him in the eye and say that you don't 
need--that we don't need to put more teeth into the law to make 
sure that when the Board makes a decision it is actually 
enforceable?
    Mr. MISCIMARRA. Dr. Shalala, thank you very much for that 
question.
    In fact, I looked Mr. Staus in the eye and I told him, I am 
from Pittsburgh, I grew up in Pittsburgh. I am from the same 
community where he currently lives. And one of the things I 
will say is former Chairman Pearce and I worked together for my 
entire tenure at the NLRB to address one weakness that 
certainly exists in the law, and I believe Mark and I are in 
agreement with this, in the 5 percent of cases that are not 
addressed and resolved in the first 60 or 90 or 120 days after 
the filing of the charge, the Board needs to do a better job 
getting cases decided more quickly. And I agree with that, I 
believe former Chairman Pearce agrees with that.
    Throughout my tenure at the board we worked very hard to 
try to make improvements. It is very challenging. The current 
Board has announced as an objective, both on the Board's side 
and the General Counsel's side, to diminish the amount of time 
associated with the board's disposition of cases, taking 20 
percent less time over a 4-year period. Frankly, I still think 
that is not fast enough.
    And our current labor laws are not perfect. But I don't 
believe that H.R. 2474 is the solution.
    Ms. SHALALA. Well, but let me push you, because what you 
did was answer the question about the time it took as opposed 
to the enforcement. Twice the National Labor Relations Board 
ordered the University of Pittsburgh Medical Center to 
reinstate him. It wasn't just the time it took for you to make 
the decision, it was the fact that it couldn't be enforced, 
that the National Labor Relations Board couldn't either 
penalize the University of Pittsburgh Medical Center and make 
sure he got reinstated. That is my question.
    Mr. MISCIMARRA. Well, with respect, Dr. Shalala, I don't 
think that H.R. 2474 would produce the quicker resolution of 
these cases. And there has already been testimony to the effect 
that in certain types of cases not only would there be NLRB 
proceedings, but there could be NLRB proceedings as well as 
Federal Court proceedings. And we all know in the panoply of 
various types of Federal laws, the Federal Courts don't have 
that great a track record in terms of resolving their pending 
court cases as well. And of course, a District Court case is 
subject to appeal to the Court of Appeals and potentially to 
the Supreme Court.
    So, again, I think speed is a problem. We tried to address 
it while I was at the NLRB, the current board is trying to 
address it, but I don't think speed is resolved in the current 
legislation that has been proposed.
    Ms. SHALALA. And I don't think speed is the issue, I think 
enforcement is the issue. And that was my point.
    Mr. Trumka, if I might ask you a quick question. This year 
marks the 100th anniversary of the International Labor 
Organization, the ILO, and it has--does the U.S. law comply 
with the basic standards of the ILO conventions? And how does 
noncompliance diminish our standing in the world? And how would 
the PRO Act help promote compliance with international human 
rights standards?
    Mr. TRUMKA. It does not comply. Our laws don't comply with 
ILO conventions. There are eight laid out conventions. Freedom 
of association and effective recognition of the right to 
collective bargaining. That is conventions 87 and 98. We have 
not adopted those. The elimination of all forms of force and 
compulsory labor, we have adopted one, that is compulsory 
labor, but not number 29. Effective abolition of child labor, 
two resolutions, we have only adopted one. The elimination of 
discrimination in respect to employment and occupation, we have 
adopted neither one of those.
    There was just a study done by the World Justice Project--
it is here. The United States ranks 20th in the world for 
enforcement of those things. And the way that it affects us the 
most is, because we don't do the things that we ask others to 
do, we look like hypocrites. We ask them to do something and we 
haven't done it. We do not protect the right to strike. That is 
one of the things that the international community specifically 
addresses and looks at and says the right to strike cannot 
exist when you can permanently replace anybody who exercises 
the right to strike.
    So what it does is, it lessens our standing in the world 
and it makes it more difficult for us to help people in other 
parts of the world correct the outrageous labor standards and 
lack of labor laws that they have.
    Ms. SHALALA. Thank you.
    Chairwoman WILSON. Thank you.
    Mr. Wright.
    Mr. WRIGHT. Thank you, Madam Chairman.
    Mr. Miscimarra, I have a lot of union families that live in 
my district. I have a number of building trade unions that 
operate there. Dallas Fort Worth International Airport is just 
outside my district, but I have a lot of families that work 
there. And the largest non-government employer in my district 
is a General Motors plant, and it is their most profitable 
plant, makes their large SUVs. So unions are important to my 
district.
    But Texas is real big on individual freedom and 
opportunity, and that is why so many people are flocking to 
Texas, for that freedom and opportunities, and why so many 
businesses are relocating there from other states. And I will 
tell you that this is one of the most anti-individual freedom 
bills I have ever seen.
    My question to you is if this were to pass, the upheaval 
would be enormous, particularly in right-to-work states. And I 
can tell you that just from district that unions thrive and do 
well in right to work states. So to do away with that just 
strikes me as incredibly ridiculous.
    But can you project what you think this upheaval would do 
to us in terms of our national economy, but also, more 
importantly, in terms of our competitive edge internationally 
in the global economy?
    Mr. MISCIMARRA. Thank you for the question, Representative 
Wright.
    I think that on many levels this legislation is ill 
advised, particularly as it relates to the competitive position 
of the United States and in the world economy. No. 1, as I 
indicated, current law, which parties have worked with for 
many, many, many years, itself represents an incongruity 
between this model developed in the 1930's, where economic 
conflict plays such a central role, and the current economy 
that was barely imaginable in the 1930's when the National 
Labor Relations Act was first adopted.
    The second thing that Congress has done over time with our 
current law is made modifications in order to sculpt or tailor 
the type of economic conflict that is available under the law. 
And, for example, the ban on secondary boycotts, as I indicated 
before, was adopted in 1947, it was strengthened in 1959, and 
it has been the law now for more than 70 years.
    Not to the extent that this bill would become law, if a 
union has a strike or a boycott with any particular company it 
would then be permissible for the union to effectuate a strike 
or engage in picketing or boycotts with every single other 
entity that does business with that company. That is what a 
secondary boycott is. That type of widespread turmoil in the 
economy, especially given the complicated economy that exists 
today, I think would be debilitating just for the people that 
are exposed to that conflict in the United States, but it 
certainly would be even more harmful if you consider the 
ramifications in the world economy.
    Mr. WRIGHT. Okay. Thank you, sir.
    I yield back.
    Chairwoman WILSON. Thank you, Mr. Wright.
    And now, Mr. Levin.
    Mr. LEVIN. Thank you, Madam Chairwoman. And I have a couple 
of slides that I would like to put up there when the staff get 
a chance to put them up.
    And the point of these slides is to show how we have been 
going in the wrong direction on workers' freedom to form unions 
and how the law is completely failing and has been for decades.
    I started organizing nursing home workers for SEIU in 1983, 
so I picked this as a start date. And the number of elections 
held every year back then was about 4,500. The number of NLRB 
union elections declined by more than half from the days when I 
started through the late aughts, which is the latest date we 
have available. And this is 0.02 percent of private sector 
employers had any kind of election.
    If you look at the next slide, the number of workers who 
cast ballots declined significantly from 1983--in the early 
`80's it was in the low 200,000's, in the late aughts it was 
100,000+/-. In 2009 the number of private sector workers who 
cast a ballot was 0.009 percent. I don't even know how to say--
9 hundredths or thousandths--whatever that is. This is when 62 
percent of people say that they are in favor of unions. And if 
we had a perfect free market for unions, 30 percent of workers 
would be in unions. The system is completely failing the 
workers of the United States.
    Mr. Miscimarra--is that how you pronounce your name?
    Mr. MISCIMARRA. Miscimarra.
    Mr. LEVIN. Miscimarra. Thank you so much. Your testimony 
states that requiring injunctions for temporary reinstatement 
upsets what the Supreme Court calls ``the delicate task'' of 
``weighing the interests of employees in concerted activity and 
the interest of the employer in operating his business in a 
particular manner''.
    At the end of your term as chairman in 2017, you issued 
five decisions overturning prior precedent, including in Hy-
Brand Industrial Contractors. Is that correct?
    Mr. MISCIMARRA. I believe that is right.
    Mr. LEVIN. And so that case, the Hy-Brand case, involved 
seven employees who were fired for protected activity. And 
there was also a question of whether those employers were a 
single employer or joint employers. And if they were joint 
employers, then that would have been governed by the Browning-
Ferris decision.
    In your October 18, 2017 email circulating a draft decision 
in Hy-Brand, isn't it the case that you told the other members 
of the NLRB that your draft decision was lifted from your 
dissent in Browning-Ferris and that members should resist the 
desire to improve the language in order to keep the focus on 
overturning Browning-Ferris. Is that correct? Yes or no?
    Mr. MISCIMARRA. In fact, my--
    Mr. LEVIN. Is that what the email said? I just need--I--
because I am going onto another question, so I just need to 
know whether you said that. I mean we have the emails, so I 
know the answer.
    Mr. MISCIMARRA. Then, I am asking why would you ask me the 
question?
    Mr. LEVIN. Oh, well, so let me continue.
    Mr. MISCIMARRA. I will respond. What I told my fellow 
members was that the dissenting opinion in Browning-Ferris 
Industries was so insightful I didn't believe it could be 
improved upon.
    Mr. LEVIN. That is modest of you. And so because member 
Emanuel's former law firm represented a party in Browning-
Ferris, didn't the Inspector General and the ethics official 
find that he violated his ethics pledge? Did that occur?
    Mr. MISCIMARRA. The--
    Mr. LEVIN. I only have 5 minutes, so I need a yes or no 
answer.
    Mr. MISCIMARRA. Well, you asked me two--there is compound--
    Mr. LEVIN. I asked you if it occurred or not.
    Mr. MISCIMARRA. The Inspector General issued a report that 
I believe is publicly available with redactions and I don't--I 
have never seen it. I don't believe it has been released what 
the designed ethics officer concluded in the case.
    Mr. LEVIN. Well, it doesn't really sound delicate or 
evenhanded to me, sir.
    Mr. Trumka, none of the NLRB members in that case disagreed 
that those seven employees were wrongly terminated, but the 
ethics scandal caused by Mr. Miscimarra's ramming through that 
decision delayed their reinstatement order by 6 months. People 
have been wrongly terminated, and as we know that kills a union 
election if they are gone for 6 months.
    If the law required injunctions for temporary 
reinstatement, like our PRO Act would have, wouldn't those 
employees have been protected from these hijinks?
    Mr. TRUMKA. Absolutely. And if the law had required that, 
what happens is when an employer illegally fires employees 
there is a tremendous chilling effect. It says to everybody 
else out there, support the union and I will fire you as well.
    Going in immediately and getting an injunction would have 
showed two things, it would have showed, one, the employer had 
acted illegally, and, two, the government was willing to stand 
up and protect workers and their rights. It would have 
encouraged them to go forward with the drive so that they had a 
voice on the job.
    As it currently stands, they can drag things out and 
dissuade people from unionizing by picking out a couple of 
scapegoats and illegally firing them.
    Mr. LEVIN. Thank you very much.
    My time has expired; I yield back, Madam Chairwoman.
    Chairwoman WILSON. Thank you, Mr. Levin. Thank you so much.
    Mr. Johnson. You see, they got all these names on here, and 
they don't have yours. That is my friend, Mr. Taylor.
    Mr. TAYLOR. Thank you, Madam Chair. Appreciate that.
    Mr. Miscimarra, did you want to respond to Mr. Levin? I 
know time ran short. It wasn't his fault, but just want to give 
you an opportunity to respond if you would like to.
    Mr. MISCIMARRA. Yes. No, I have no further response in 
relation to what he was asking questions about.
    Mr. TAYLOR. Okay, great. Thank you so much.
    So, you know, I happen to represent a very affluent 
district that is, you know, burgeoning, growing, lots of jobs 
coming. And as companies come to Texas, over and over again I 
hear how important it is that Texas is a right-to-work state. 
And certainly in my 8 years in the legislature it was really 
very important to us that we were a right-to-work state. It 
seemed to certainly attract a lot of jobs, high end and low 
end. Texas has certainly created a tremendous number of jobs.
    I think DFW recently reported they added a million people 
over the last decade and a lot of them have come to my county, 
to Collin County.
    So you have a JD-MBA from Wharton, is that right?
    Mr. MISCIMARRA. I do.
    Mr. TAYLOR. Okay. So you have me at a disadvantage.
    Mr. MISCIMARRA. And law school.
    Mr. TAYLOR. Okay. Well, the JD I think would be the law 
degree, right?
    Mr. MISCIMARRA. Yes.
    Mr. TAYLOR. So you are an attorney. I am not. But I have 
read the Constitution and in the Bill of Rights there are five 
protected rights, freedom of speech, freedom of press, freedom 
of religion, freedom to assemble, and freedom to petition. And 
I am just concerned about this particular piece of legislation, 
H.R. 2474. It seems to have some things that might go contrary 
to our First Amendment rights, specifically the right to 
assemble and the right to speech.
    Can you speak to those two?
    Mr. MISCIMARRA. Well, you know, there are two things I 
think that create issues in relation to the First Amendment. 
One thing is that the bill prohibits an employer--or would 
prohibit an employer from conducting workplace meetings in 
which the employer expresses, you know, its views with respect 
to union related issues. And, of course, you know, an employer 
in relation to its employees has access to its employees when 
they are at work. A union attempting to organize has potential 
access to employees at every other time. And of course 
employers have First Amendment rights just like anybody else, 
corporations have First Amendment rights. So from that 
perspective the bill implicates the First Amendment rights of 
employers.
    Secondly, the bill, as we have talked about, also would 
override the state laws that protect employees from being 
required in right-to-work states from being required to make 
mandatory union agency fee payments. And the Supreme Court in 
the Janus case decided last year held that the First Amendment 
also protects compelled speech, or a requirement that employees 
subsidize an organization with which they lack agreement. And 
so the Janus case of course dealt with First Amendment issues 
that arose in the context of public employment. Those same 
First Amendment issues have not been specifically addressed 
since Janus in the context of private sector employment, but 
this issue about compelled subsidizing an organization with 
which some employees do not agree certainly implicates 
potentially significant First Amendment concerns.
    Mr. TAYLOR. I appreciate that. Obviously I would submit 
that Congress should not attempt to pass laws that are 
unconstitutional on their face, and certainly you only have to 
go to the Bill of Rights to see those rights, and only the 
First Amendment to see those rights.
    Shifting over to something that I am sure is important to 
you as an attorney, you know, in your practicing law firm, 
attorney-client privilege.
    So attorney-client privilege is something we understand as 
being very important, particularly within the context of the 
Seventh Amendment, the right to a trial by jury. And so as we 
think about that, does 2474, I mean in your mind, violate some 
pieces of attorney-client privilege, which is so important to 
our judicial system?
    Mr. MISCIMARRA. Well, the bill would codify what was known 
as the Persuader Rule adopted by the Department of Labor 
several years ago, which has since been rescinded. But what the 
bill does, consistent with what the Department of Labor 
formerly required, was--or it was in the process of being 
implemented and then it was abandoned by DOL--is that to the 
extent that employers consult legal counsel in relation to 
various union related issues, that would then be subject to 
mandatory reporting for purposes of the Labor Management 
Reporting and Disclosure Act, which is a significant change 
from current law and significant change from the way that the 
legal advice exception to the LMRDA has been interpreted.
    Mr. TAYLOR. And so that would really interfere with the 
attorney-client privilege. I mean the ability for an attorney 
and a client to have free communication to discuss things, you 
know, knowing that they are going to have to report that, 
right?
    Mr. MISCIMARRA. Well, and I think it would effectively 
limit access to counsel--
    Mr. TAYLOR. Wow.
    Mr. MISCIMARRA [continuing]. in many instances with respect 
to union related issues.
    Mr. TAYLOR. Well, certainly limiting access to counsel 
strikes me as an un-American concept. I mean it is just not 
right. I think we value that ability to have a functioning 
legal system.
    Mr. MISCIMARRA. Most lawyers would agree with you on that.
    Mr. TAYLOR. Well, I hope most on the dais do.
    Madam Chair, I yield back.
    Chairwoman WILSON. Thank you, Mr. Taylor.
    And now our distinguished Chair Attorney Scott.
    Mr. SCOTT. Thank you.
    Mr. Trumka, did you have a comment you wanted to make?
    Mr. TRUMKA. I most definitely did. I trust that Texas also 
wants to protect the free speech of employees, other than just 
employers, because they can be made to go into these meetings 
and not say a word. If they do say a word they get fired. That 
is not free speech.
    And he just erroneously told you it would prevent employers 
from having sessions like this. It would not. The difference it 
would be is they would have to do it voluntarily. The workers 
would get to come if they wanted to and not come if they don't 
want to.
    The law as it currently stands, and as he proposes it stay, 
is that they must go, whether they want to go or not. They 
don't get a say in all of that.
    And I would like to correct a number of those erroneous 
things in written testimony after the hearing, Madam Chair, if 
that is permissible.
    Chairwoman WILSON. So ordered.
    Mr. SCOTT. Thank you.
    Mr. Trumka, could you tell me what the problem is that the 
fair share agreement would solve?
    Mr. TRUMKA. Well, what happens with fair share is that you 
have an election and the union wins. And then they get a second 
bite at the apple, the ones that don't want to be in the union 
say, okay, the union won, majority rules, but you don't get to 
be--I don't have to be in the union and you have to give me all 
the services that you give everybody else and I don't have to 
pay. This bill would allow employers and employees to come 
together and say that is not fair. If they want all the 
services, they also ought to have to pay a little bit of the 
tab.
    So it is like if you have a general election, an election 
for House of Representatives, and you got 52 percent of the 
vote, the other 48 percent could say I don't recognize you, I 
get to be a different rule. And if you have any governance, I 
don't have to apply to it, I don't have to listen to it, and 
you have to give me all the services you give the other people.
    Mr. SCOTT. And what kind of taxes under that scenario would 
you be paying?
    Mr. TRUMKA. What kind of taxes?
    Mr. SCOTT. Yes. You wouldn't pay taxes.
    Mr. TRUMKA. Well, you wouldn't under that scenario. I would 
opt out by saying I don't recognize your new tax law.
    Mr. SCOTT. Now, the fair share would cover just those 
services required by law. Would it cover things like annual 
cookouts and political activities?
    Mr. TRUMKA. No, it would not. We cannot charge for that. 
Never have. Political activities are completely separate. And 
even if you don't have a right to work law, employees can opt 
out of the part of their dues that is used for political 
activity.
    Mr. SCOTT. Now, let me ask another question. What is wrong 
with misclassifying employees as independent contractors?
    Mr. TRUMKA. Well, it takes away their ability to ever have 
a voice on the job. What an employer does is--there is one 
example where you had a trash company and they classified the 
people that came in to pick the trash off of the belt, they 
classified them as independent contractors, even though their 
employer, the original employer, determined the speed that the 
belt went. So they would never be able to have a voice with 
that employer and get the level of the speed of the conveyor 
belt. They couldn't negotiate to slow it down or to make the 
place more safe because they were ``the employees of not the 
employer, but an independent contractor''. So it prevents them 
from coming together, organizing a union, and getting a voice 
on the job.
    Mr. SCOTT. Would independent contractors be eligible for 
minimum wage?
    Mr. TRUMKA. For minimum wage?
    Mr. SCOTT. Right.
    Mr. TRUMKA. Yes.
    Mr. SCOTT. Independent contractors?
    Mr. TRUMKA. Well, no, they wouldn't have a minimum wage 
because they don't have an employer.
    Mr. SCOTT. Right.
    Mr. TRUMKA. They are an independent contractor. So you are 
right, they would not be covered by it.
    Mr. SCOTT. If there is an unfair labor practice, does the 
victim have to wait for--let me ask Mr. Pearce. If there is an 
unfair labor practice, does the victim have to wait for the 
NLRB to act or can they act on their own?
    Mr. TRUMKA. They cannot act on their own. First, they have 
to wait for the NLRB to issue a charge. And then after the 
charge it goes before an Administrative Law Judge. And then 
after an Administrative Law Judge, then it goes to the full 
National Labor Relations Board. After the full National Labor 
Relations Board it can go to the circuit court of appeals. 
After the circuit court of appeals, they still have to go 
through an enforcement process then. So they say yes, you must 
bargain, and then the employer doesn't bargain, so they have to 
go through much of the same thing again.
    Mr. SCOTT. And let me ask Mr. Pearce one final question. 
What is the difference between a self-enforcing order and one 
issued by the NLRB under present law?
    Mr. PEARCE. Under the present law--and thank you, Mr. 
Chairman, for asking the question. If a law is self-enforcing, 
then that--you don't have to go to Federal court to get it 
enforced. It is immediately effective on the wrongdoer. Several 
other statutes provide that for wrongdoings and violations. The 
NLRA essentially is a car driving with a boot on it because it 
has to go and get to Federal court each time it wants to 
enforce its remedies. So automatically it slows down the 
process and victims are further damaged by the passage of time.
    Chairwoman WILSON. Is that it, Mr. Chair? Finished?
    Mr. SCOTT. I yield back.
    Chairwoman WILSON. As there are no more subcommittee 
members present, I now recognize the gentlewoman from 
Connecticut, Ms. Hayes, who was a former National Teacher of 
the Year.
    Ms. HAYES. Thank you, Madam Chair.
    I want to start off first by saying that I have spent my 
entire adult life as a proud union member, as a member of SEIU 
1199, the Waterbury Teachers Association, the Connecticut 
Teachers Association, and ultimately, the National Education 
Association. So I know both the power and the sense of 
empowerment that labor unions bring. In fact, in my year as 
National Teacher of the Year, there were four finalists 
celebrated at the top of their profession. Three of those four 
finalists walked out of their classrooms with their union 
brothers and sisters to negotiate wages, benefits, and most 
importantly, supports and resources for the kids in their 
classrooms. All of those things are worth fighting for.
    And above all, unions give workers a seat at the table. So 
I get it. That is why I am so frustrated when I hear stories 
around the country, and even in my home district, of workers 
who are actively being discriminated against or retaliated 
against for exercising their rights to organize.
    I have heard from Social Security Administration union 
representatives in Connecticut. They allege that the critical 
centers were closed in many states because they had high 
numbers of union employees. They allege that the Social 
Security Administration makes it more difficult for union reps 
to do their jobs and often targeted and retaliated against 
workers aligned with the union during personnel reviews, or 
when those workers requested leave or reasonable 
accommodations, they were denied. Meanwhile, their complaints 
to the National Labor Relations Board had gone unheard during 
this Administration.
    Mr. Trumka, my question is for you. Are these complaints of 
employers' retaliation common for workers who are union members 
or are looking to unionize? And have they increased in the most 
recent years?
    Mr. TRUMKA. We have seen that attacks, the number of things 
that they do--they have new threats now. They have the threat 
to move overseas, they have the threat to close down. They use 
the sweat sessions or the closed meetings, mandatory audiences, 
more often now than they did before, they are longer, more 
intense, and they have a greater effect on workers.
    So we are seeing the law be violated more and more, and the 
ability to enforce it becomes less and less as it increases in 
intensity.
    Ms. HAYES. Thank you. In your testimony you mentioned that 
workers who wanted to form a union often cannot talk with or 
meet with union representatives at their job. As I have 
mentioned, we have heard about this happening in my own 
district. However, employers are free to talk with employees. 
We heard a lot about those mandatory captive audience meetings. 
In fact, employers can require employees to attend these 
meetings.
    We also heard from my Republican colleagues on the other 
side of this committee that the PRO Act requires employers to 
provide private information to unions, which they claim unions 
could abuse or sell to third parties.
    Madam Chair, I would like to submit a document that 
contradicts that argument. It is information--
    Chairwoman WILSON. So ordered.
    Ms. HAYES. Thank you. It is information that the NLRB 
submitted to this committee in 2018 and it reveals that no 
employer has charged that a union has abused the voter 
information list since this procedure was updated in 2014. In 
fact, this document states that these lists--well, this 
document shows that these lists are necessary to create parity 
during election campaigns as employers already have this 
information to use with employees.
    Mr. Trumka, again to you, how do these rules, which require 
that an employee share information and contact information with 
the union before an election, eliminate this double standard, 
and make this process more fair?
    Mr. TRUMKA. Well, most of the time only the employer knows 
who all of the employees are and where they work. So the new 
rule would codify an existing rule of the NLRB, and it would 
require them to provide promptly a voter list when an election 
is directed, including the name, the position, the shift, the 
work location, phone number, email, and physical address. That 
wasn't required under the old rules, but the NLRB now requires 
it. It is essential in order to be able to communicate with 
them, because remember, we are not allowed on the property. We 
can't go on, we can't talk to people. You may have to meet with 
them at a grocery store, anyplace else where you can get them. 
The most efficient place and the best place for them to be able 
to talk is in their home setting at their home, so that you can 
have a real conversation with them.
    Ms. HAYES. Thank you.
    Mr. Pearce, I have 10 seconds. Do you think--we have heard 
a lot especially from Mr. Miscimarra about banning captive 
audiences undermines employees' free speech right. How would 
this be protected do you think under this Act?
    Mr. PEARCE. Well, under this Act employees will have the 
freedom to freely discuss and choose not to participate in an 
employer's campaign. Employers with new technology have all the 
cell phones of employees or supply cell phones to employees and 
they can send anti-union texts to employees. Employee drivers--
we have the cases where drivers have ride alongs where the ride 
along is giving propaganda to the employee continuously without 
the employee having the ability to say, you know, I don't want 
to hear this.
    And then the second piece of that is, if the employee does 
say I don't want to hear this, then they could be subject to 
retaliation.
    The technology and the control that the employers have 
creates an imbalance with respect to employee access and a fair 
understanding of the election process.
    Chairwoman WILSON. Thank you. Mm-hmm.
    Ms. HAYES. Thank you, Madam Chairwoman.
    And I yield back.
    Chairwoman WILSON. I remind my colleagues that pursuant to 
committee practices, materials for submission for the hearing 
record must be submitted to the committee clerk within 14 days 
following the last day of the hearing, preferably in Microsoft 
Word format. The material submitted must address the subject 
matter of the hearing. Only a member of the committee or an 
invited witness may submit material for inclusion in the 
hearing record. Documents are limited to 50 pages each. 
Documents longer than 50 pages will be incorporated into the 
record by way of an internet link that you must provide to the 
committee clerk within the required timeframe. But please 
recognize that years from now that link may no longer work.
    Again, I want to thank the witnesses for their 
participation today; a very lively, energetic group of 
witnesses. We learned a lot and we certainly appreciate your 
time. What we heard today is very valuable.
    Members of the committee may have some additional questions 
for you, so look out for them. And we ask the witnesses to 
please respond to those questions in writing.
    The hearing record will be held open for 14 days in order 
to receive those responses.
    I remind my colleagues that pursuant to committee practice, 
witness questions for the hearing record must be submitted to 
the majority committee staff or committee clerk within 7 days. 
The questions submitted must address the subject matter of the 
hearing.
    Before recognizing the ranking member for his closing 
statement, I ask unanimous consent to enter the following 
materials into the record in support of the PRO Act. I have 
letters from the United Steelworkers, the International Union 
of Painters and Allied Trades, the AFL-CIO, the SEIU, and the 
UFCW, the BlueGreen Alliance.
    Without objection.
    I now recognize the distinguished ranking member, Mr. 
Walberg, for his closing statement.
    Mr. WALBERG. Thank you, Madam Chairwoman, and thanks to the 
panel for being here. It has indeed been a lively discussion. 
It is a worthy discussion. This is America. America is back, 
Michigan is back. I am delighted about that. I am delighted to 
see corporate entities coming back, building cars, products in 
Michigan again. It is a manufacturing state, it needs workers, 
it needs businesses in order to make it work together.
    My concern is that for anything that would stand in the way 
of continued expansion, that purports to help workers or 
businesses, and in the end costs jobs. We saw that happen in 
the downturn of economy. I was here in 2007-2008 and watched 
what took place in Michigan as it was decimated, as businesses 
left, and unions could not come up with what they promised to 
their employees. And we saw large corporations, specifically 
two of the big three, go bankrupt, and we had to bail them out.
    Don't want that to happen again, because like Mr. Staus, 
that touches lives and families. What he has lived through, 
many, many people in Michigan lived through as well.
    So while there needs to be reforms, there needs to be 
upgrades on the legislation as well as the agencies we put 
together to make sure they are working right and they are 
mobile, loose on their feet, we cannot walk away from the 
underpinning principles to undermine those principles that talk 
about the freedom that we have in this country.
    And so to take a bill like we are looking at today that 
eliminates right to work laws nationwide, regardless of whether 
the people of Michigan voted for that or not, is wrong. I say 
the unions earn it, earn it back. To stifle work of independent 
contractors, which limits workplace flexibility and 
opportunity, is wrong.
    Violate workers' privacy rights without them volunteering 
those pieces of information that could allow, yes, a union 
organizer to get their information and make those contacts. 
Voluntarily, great. Involuntarily, a violation of the right to 
privacy.
    So we need to get it right. And, Madam Chairwoman, I think 
this side of the aisle is willing to work on those issues, we 
are willing to work toward a solution that is indeed a 
compromise, that protects some of these key things that make 
America great and, more importantly, make our workers, our work 
force, and our businesses great as well.
    So I commit to doing that and I think this was a good 
start, talking about it. I hope it doesn't end here, we 
continue in working toward solution.
    And before I end, Madam Chairwoman, I ask unanimous consent 
to submit letters in opposition to H.R. 2472 into the record 
from the following organizations: Associated Builders and 
Contractors, Coalition for a Democratic Workplace, Independent 
Electrical Contractors, International Franchise Association, 
National Association of Home Builders, National Restaurant 
Association, and National Retail Federation.
    I also ask to submit a letter from the Coalition for 
Workforce Innovation expressing concerns with the bill.
    Chairwoman WILSON. So ordered.
    Mr. WALBERG. Thank you.
    Chairwoman WILSON. I now recognize myself for the purpose 
of making my closing statement. And, as always, Mr. Walberg, 
the distinguished ranking member, is willing to work with me 
and with our committee, so this has been a great session today. 
We have heard your witness. I don't think that--we heard you, 
we heard you. We are going to try to connect the dots there. 
Right now they are not connecting.
    I now recognize myself for the purpose of making my closing 
statement.
    Thank you again to all of our witnesses for your 
testimoneys today. Today, we heard how the Protecting the Right 
to Organize Act can safeguard the fundamental human rights to 
organize a union, stopping employers from coercing and 
retaliating against their workers. Routine violations of 
workers' rights to organize suppresses wages and denies workers 
the opportunity to negotiate for their fair share of the wealth 
they create.
    We heard from Mr. Trumka how the PRO Act can prevent abuse 
of workers' rights through penalties and holding coercive 
captive audience meetings, making people sit and not move. We 
heard from Mr. Staus on how difficult it is to organize a union 
in the face of vicious attacks. Mr. Staus is one of many 
courageous Americans who stood up for their rights to organize 
a union and he deserves justice under the law.
    Some of the stories I have heard and witnessed are 
deplorable. We heard from Mr. Pearce how the PRO Act would 
strengthen the National Labor Relations Board by reducing 
procedural obstacles and ensure that workers like Mr. Staus 
receive swift remedies.
    As our witnesses have made clear, Congress must enact the 
PRO Act to deter violations of workers' rights and reverse 
decades of wage stagnation and income inequality.
    I thank my colleagues for constructive HELP Subcommittee 
hearing and I yield back my time.
    If there is no further business, without objection, the 
committee stands adjourned.
    Thank you so much.
    [Additional submission by Mrs. Foxx follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    [Additional submission by Ms. Hayes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    [Additional submission by Mr. Roe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    [Additional submission by Mr. Trumka follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
  
    [Additional submission by Mr. Walberg follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
 
 
    
    
    
    [Additional submission by Ms. Wild follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    [Additional submission by Chairwoman Wilson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 4:38 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
